<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 116-95]
                         

                      THE U.S. MILITARY MISSION IN

                      AFGHANISTAN AND IMPLICATIONS

                        OF THE PEACE PROCESS ON

                            U.S. INVOLVEMENT

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 20, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-876 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                Will Johnson, Professional Staff Member
               Mark Morehouse, Professional Staff Member
                          Emma Morrison, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     4

                               WITNESSES

Biddle, Dr. Stephen, Professor of International and Public 
  Affairs, Columbia University; Adjunct Senior Fellow, Council on 
  Foreign Relations..............................................     8
Crocker, Hon. Ryan, Career Ambassador, Retired, U.S. Foreign 
  Service, Nonresident Senior Fellow, Carnegie Endowment for 
  International Peace............................................     5
Jones, Dr. Seth G., Harold Brown Chair; Director, Transnational 
  Threats Project; and Senior Adviser, International Security 
  Program, Center for Strategic and International Studies........    10

                                APPENDIX

Prepared Statements:

    Biddle, Dr. Stephen..........................................    62
    Crocker, Hon. Ryan...........................................    51
    Jones, Dr. Seth G............................................    76

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Smith....................................................    93

Questions Submitted by Members Post Hearing:

    Ms. Speier...................................................    97
    
.    
                THE U.S. MILITARY MISSION IN AFGHANISTAN

                 AND IMPLICATIONS OF THE PEACE PROCESS

                          ON U.S. INVOLVEMENT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Friday, November 20, 2020.
    The committee met, pursuant to call, at 9:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. I call the committee to order.
    We--our full committee hearing today is on the U.S. 
military mission in Afghanistan and the implications of the 
peace process on U.S. involvement.
    We are doing this hearing both with some members present 
and some members remote. We also have two of our witnesses that 
will be remote. So we are--this is the first time we have been 
back for a full committee meeting of the House Armed Services 
Committee since the COVID [coronavirus] outbreak. So I urge all 
of those of you participating and watching to be patient as we 
make sure we work out the bugs and get everybody the chance to 
say what they need to say, and run the committee in an orderly 
fashion. Before we start, along those lines, I am going to read 
the basic rules and outlines of how we are doing this 
particular hearing.
    I welcome the members who are joining today's markup 
remotely. Those members are reminded that they must be visible 
on screen within the software platform for the purposes of 
identity verification when joining the proceeding, establishing 
and maintaining a quorum, participating in the proceeding, and 
voting.
    Members participating remotely must continue to use the 
software platform's video function while attending the 
proceedings unless they experience connectivity issues or other 
technical problems that render the member unable to fully 
participate on camera. If a member who is participating 
remotely experiences technical difficulties, please contact the 
committee staff for assistance and they will help you get 
reconnected.
    When recognized, video of remotely attending members' 
participation will be broadcast in the room and via the 
television/internet feeds. Members participating remotely are 
asked to mute their microphone when they are not speaking. 
Members participating remotely will be recognized normally for 
asking questions, but if they want to speak at another time, 
they must seek recognition verbally. In all cases, members are 
reminded to unmute their microphone prior to speaking.
    Members should be aware that there is a slight lag of a few 
seconds between the time you start speaking and the camera shot 
switching to you.
    Members who are participating remotely are reminded to keep 
the software platform video function on for the entirety of the 
time they attend the proceeding. Those members may leave and 
rejoin the proceeding. If members depart for a short period for 
reasons other than joining a different proceeding, they should 
leave the video function on. If members will be absent for a 
significant period or depart to join a different proceeding, 
they should exit the software platform entirely and then rejoin 
it if they return.
    Members are also advised that I have designated a committee 
staff member to, if necessary, mute unrecognized members' 
microphones to cancel any inadvertent background noise that may 
disrupt the proceeding. Members may use the software platform 
chat feature to communicate with staff regarding technical or 
logistical support issues only.
    Finally, remotely participating members should see a 5-
minute countdown clock on the software platform's display. But 
if necessary, I will remind members when their time is up.
    Yes, I was joking with staff before we got started here 
this morning that doing these hearings now is a little like 
trying to launch the space shuttle. It is not quite that bad, 
but there is a lot more technical stuff involved than usual.
    But the purpose of this hearing is both incredibly 
important and very timely, and we are lucky to have three 
outstanding witnesses with us today. The Honorable Ryan 
Crocker, who will be appearing remotely, career ambassador, 
retired, U.S. Foreign Service, nonresident senior fellow at the 
Carnegie Endowment for International Peace, and among other 
things, a former ambassador to Afghanistan. Dr. Stephen Biddle, 
professor--also participating remotely--professor of 
international and public affairs at Columbia University and an 
adjunct senior fellow on the Council on Foreign Relations. And 
here in person we have Dr. Seth Jones, who is the Harold Brown 
Chair, director of Transnational Threats Project, and senior 
advisor for the International Security Program at the Center 
for Strategic and International Studies.
    As mentioned, this is an incredibly important and very 
timely topic. It is just about 19 years ago that we went into 
Afghanistan, and at the time, we had a very clear mission. 
Having just been attacked on 9/11 by Osama bin Laden and al-
Qaida out of Afghanistan, we went in there to make sure it 
never happened again, to stop the threat and to contain it. And 
I think that continues to be the top mission. We face a threat 
from transnational terrorist groups. We can debate how large 
that threat is, where exactly it comes from, and how best to 
contain it, but it is not debatable that that threat is there.
    It's also worth noting that for all the problems and 
troubles and difficulties that we had, that mission has been 
successful in one sense. We have not had a transnational 
terrorist attack on the U.S. And when we think about all the 
men and women who serve in the military, those who lost their 
lives, those who were injured, those who have suffered because 
of this, also all of the State Department personnel and all of 
the aid workers who have been there, and all of our allies and 
partners. Keep in mind, this is not just the United States of 
America. NATO [North Atlantic Treaty Organization] and a number 
of other countries have participated in this mission.
    And in that one key point, it has been successful and it 
should not be taken for granted. But the question is, where do 
we go from here? Because while that has been successful, there 
has also been a great cost. As was just mentioned, in terms of 
lives lost, people injured, and the sheer cost to the Nation, 
and money as well.
    So where do we go from here and how do we move forward? I 
think it is important that we continue to maintain the mission 
to stop transnational terrorist threats. But some of the other 
costs associated with this is the fact that it is disruptive to 
have foreign troops in a country. And as we look to contain the 
terrorist threat and stop the spread of the toxic ideology that 
fuels it, the presence of U.S. troops in foreign countries is 
one of those things that we cannot deny fuels it.
    And you can think of your--if you were in your own town, 
wherever you live in America, and a foreign troop came rolling 
through town telling you what you had to do, it would not make 
you feel good about that foreign country. We would be in a 
better place if we did not have to have our troops in foreign 
countries. And I don't think we should ever forget that.
    The other aspect of this mission that has made it difficult 
is, in addition to preventing transnational terrorist threats, 
that mission has morphed a little bit into trying to bring 
peace and stability to Afghanistan. Now, there is a clear 
reason for that in connection to the basic principle of 
stopping transnational terrorist threats. We have learned that 
ungoverned spaces, failed governments make it easier for these 
terrorist groups to show up and take root.
    And, certainly, South Asia is a place where there are a lot 
of ideological extremists who could take advantage of that. So 
one can argue, and many have, that if Afghanistan falls apart, 
we will be right back where we were on 9/11. I don't think that 
is necessarily as quick a guarantee as some argue.
    I also believe that what we have learned in 19 years, is we 
are not going to impose peace on Afghanistan. We are not--you 
know, whether, however we are going to bring a coalition 
together and try to build institutions and reduce corruption 
and build confidence, outside forces are not going to bring 
peace to Afghanistan. One way or the other, the people of 
Afghanistan are going to have to make that choice.
    And when we look at Afghanistan, I think we need to be very 
humble about imagining that there is something that we can do 
to make that different. We can help, certainly. We cannot 
ultimately solve the problem, and we have to balance that 
against all of the costs that I just laid out.
    And it seems to me at this point that the commonsense thing 
to do is to have the absolute minimum presence that we require 
to meet our goal of stopping that transnational terrorist 
threat. I happen to believe that we need to draw down there, 
because of the cost, because of the impact, and because of the 
fact that it has become clear that we are not going to be able 
to impose peace upon Afghanistan.
    There are a lot of different ways to contain troublesome 
regions that could potentially pose transnational terrorist 
threats. Regrettably, we have an enormous amount of experience 
with doing just that. Whether you are talking about Libya or 
Yemen or Somalia or, you know, several different countries in 
West Africa, the disruptions that are present there, the 
instability and the presence of violent extremist groups, in 
some cases with transnational ambitions, has shown us that we 
have to work very hard with local partners in a variety of 
different ways to contain that threat. It doesn't require 
thousands of U.S. troops.
    And my hope today is that our witnesses can give us some 
guidance as we go forward how best to contain the threat that 
comes out of Afghanistan and South Asia, more broadly, while 
minimizing the risk, cost, and expense, and also crucially 
minimizing that disruptive effect that the presence of U.S. 
troops on foreign soil has, that the propaganda that it hands 
to our enemies to argue about what the U.S. is doing that 
requires this ideological extremism. How do we balance all of 
that?
    And, again, this is timely because, you know, the President 
has just made his announcement that he is drawing down to 2,500 
troops in Afghanistan. It is absolutely crucial that we work 
with our partners on whatever our plans are. But I think this 
is a crucial moment as we decide what our future is in 
Afghanistan.
    Nobody wants to be there forever. Now, you know, people 
have said, well, we can't have forever wars. And I personally 
never liked that phrase, because a war that lasts one day that 
was done for the wrong reasons and wasn't necessary is 
completely and totally wrong. On the other hand, if you are 
going to war, if you are fighting because you need to protect a 
core interest, then it lasts as long as it lasts.
    I never imagined myself one to quote Lindsey Graham, but 
when he said, you may be tired of fighting ISIS [Islamic State 
of Iraq and Syria], but ISIS is not tired of fighting you, I 
think that is an important thing to think about as we try to 
figure out how we contain these threats while minimizing the 
risk and the cost and the impact of how we do that.
    I look forward to the witnesses' testimony. With that, I 
will turn it over to Ranking Member Thornberry for his opening 
statement.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    And I have to say it is good to be back in our Armed 
Services Committee home. And because this may well be the last 
hearing of this session of Congress, I want to take a moment 
and just express appreciation to you and to the staff for the 
way you have dealt with incredibly challenging circumstances 
under COVID, and yet we have pressed ahead with hearings, we 
pressed ahead with having our bill passed overwhelmingly on the 
floor of the House, in conference now with the Senate. So our 
business has continued in spite of the challenges. And that is 
in no small measure a tribute to you and the staff dealing with 
all the technical challenges that we face, and I appreciate it.
    I agree with you that this is an incredibly important 
topic. Rightfully, our national secur--our military and 
national security apparatus is more focused on great power 
competition, but the terrorist threat has not gone away. And so 
it is one of the challenges of our time that we have to worry 
about this wide range of threats.
    The other thing I just want to emphasize, which you 
mentioned, and I think we maybe don't say it enough, is that 
when it comes to national security, it is really hard to prove 
what did not happen. And in the case of Americans who have 
fought, and some died, to prevent a repeat or worse of 9/11, I 
think it is very important for those who participated and 
family members who lost loved ones to know that it has been--
the last 19 years has seen far greater success than I ever 
expected on September 11, 2001.
    The idea that we would be this far removed--there have been 
terrorist attacks against our homeland, but nothing on the 
scale of 9/11. And we know from our classified briefings that 
they were planned, attempted, and some far worse even than that 
day.
    So appropriate appreciation, as you say, to the military, 
but also intelligence community, law enforcement, who have 
helped prevent that is probably something we need to say and 
recognize more often.
    I think it is very important to have this hearing today. I 
should say, by the way, that a hearing on Afghanistan has been 
on our agenda for months, but it turns out that this is a very 
timely hearing today. The goal all of us have is for the 
Afghans to be able to handle their security issues on their own 
so that no transnational threat emerges from that territory. 
But I do not believe that they are there yet.
    I have tremendous respect for each of our witnesses today 
and look forward to hearing from them, what they see is the 
state of the conflict today, what effect our unilateral 
withdrawal in the midst of negotiations may have, and any 
advice they have for the incoming Biden administration on how 
to deal with the Afghan and broader situation in South Asia. So 
I look forward to hearing from them and appreciate their 
participation today.
    I yield back.
    The Chairman. Thank you.
    Our first witness will be the Honorable Ryan Crocker who is 
participating remotely. Ambassador Crocker, you are recognized.

  STATEMENT OF HON. RYAN CROCKER, CAREER AMBASSADOR, RETIRED, 
   U.S. FOREIGN SERVICE, NONRESIDENT SENIOR FELLOW, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Ambassador Crocker. Thank you, Mr. Chairman, Ranking Member 
Thornberry. Are you able to hear me?
    The Chairman. Yes. We've got you loud and clear. Go ahead.
    Ambassador Crocker. Excellent.
    I would note that I come to you this morning from the great 
State of Washington. It is about zero dark 30 out here, but I 
am honored to be here.
    The Chairman. I approve of that, and I wish I was there as 
well.
    Ambassador Crocker. Mr. Chairman, you and the ranking 
member have summarized, I think, very, very well the central 
question that we as a nation are dealing with. Why are we in 
Afghanistan after 19 years? It is pretty simple, pretty basic, 
and pretty crucial: to ensure that nothing again ever comes out 
of Afghanistan to strike us in our homeland. After two decades, 
it is again very important to remind ourselves of that and to 
remind ourselves of who we face out there.
    After 9/11, the Taliban was given a choice. It could give 
up the al-Qaida terrorists, who are enjoying a safe haven in 
Afghanistan, and we would not take military action, or they 
could stand back and suffer the consequences. They chose the 
latter, Mr. Chairman, and have been in exile now for almost two 
decades. Unfortunately, we are at a moment when the Taliban 
sees the end of its exile and an opportunity to return to 
control.
    Mr. Chairman, I had the privilege of opening our Embassy in 
Afghanistan in the beginning of January 2002. What I saw there 
was a scene of utter devastation, a shattered city, a destroyed 
country. And as bad as the physical damage was, I was 
immediately aware of the profound damage two decades of 
conflict had done to the Afghan people, especially during the 
period of Taliban rule to women and girls in Afghanistan. I 
thought it important to move swiftly to try to repair the 
damage to the human capital as well as the physical. So we 
opened girls' schools right away.
    Still in January of 2002, I had the privilege of hosting 
the then-chairman of the Senate Foreign Relations Committee, 
Senator Joe Biden. I took him to visit a girls' school. We sat 
in on a first grade class that had girls ranging from age 6 to 
age 12. The 12-year-olds, of course, came of school age when 
the Taliban took over the country.
    So I saw a unique opportunity here. As this committee knows 
so well, we often find a tension between our core national 
values and our national security agenda. In Afghanistan, the 
two came together: our values and our interests. It dictated 
that we be present, that we ensure that the Taliban did not 
return with its al-Qaida allies. And the best way to do that, 
we felt, was developing that human capital.
    So when I arrived in Afghanistan in 2002, there were about 
900,000 students, all of them boys, in Afghan schools. I 
returned as ambassador a decade later. And when I ended that 
ambassadorial post, there were 8 million students, and around 
35 percent of them were girls.
    Over the long run, Mr. Chairman, it is the Afghan people, 
as you rightly note, who have to make peace. Certainly an 
educated population, and with girls and women playing the role 
they deserve in this momentous decision is the best way to 
secure--to ensure our own long-term security. It will take 
strategic patience and it will take continued U.S. engagement.
    The peace process, so-called, it was launched now almost 2 
years ago, represented a very bad U.S. concession. We agreed to 
a longstanding Taliban demand that we talk to them but not with 
the Afghan Government in the room; they considered it a puppet 
regime. So we gave in. And it underscored, I think, that this, 
again, so-called peace process, that is not what this is about.
    These are surrender talks. We are waving the white flag, 
basically saying to the Taliban, you win, we lose, let's dress 
this up as best we can. An eerie reminder of the Paris peace 
talks on Vietnam. But I wouldn't push that parallel too hard 
and too far.
    In Vietnam, neither the Viet Cong nor the North Vietnamese 
had attacked the homeland or ever considered such a step. Al-
Qaida did attack the homeland from Afghanistan, hosted by the 
Taliban. They have not become kinder and gentler in the 
intervening years. It is, I am afraid to say, folly to think 
that a full U.S. troop withdrawal is somehow going to make us 
safer or uphold our core values.
    We have, as you point out, NATO in the mix. I think that is 
very important. We have heard from the Secretary General of 
NATO expressing his concern over the President's decision this 
week to cut in half the already small number of troops we have 
in Afghanistan.
    So, again, I commend you for holding this hearing. I do 
believe there is a way forward in Afghanistan that will 
minimize our cost and our human losses, which has to be an 
imperative. I will be part of a working group put together by 
the Rockefeller Brothers Fund and the Atlantic Council to do 
just that. But we have to show the strategic patience we need 
to face down a determined enemy.
    I would like to take just a moment on another special group 
of individuals that have sacrificed a great deal for us, and 
those are our interpreters and other Afghan individuals who 
have helped our mission in that country.
    Mr. Chairman, you recently received a letter from Senators 
Shaheen and Wicker, asking that the necessary steps be taken to 
grant 4,000 additional visas for these brave individuals and 
their immediate families. There is a backlog of almost 18,000 
cases. And, hey, these are individuals that are at enormously 
serious risk. No One Left Behind, a group dedicated to bringing 
our interpreters and others here to safety, calculates that 
about 300 individuals, interpreters and their family members, 
have been killed while waiting for the visas we promised them 
and have delivered slowly and in disappointingly small numbers.
    So I would urge this committee as it moves ahead to--to do 
the right thing, the thing we promised, bring these brave 
people here, bring them home. Their new home. We will never 
regret having done so. If we fail in this endeavor, we will 
have traduced, I think, our own core values. The nature of war 
has changed. There is no more total war. We can be grateful. 
Conflicts of the future are going to require interpreters, and 
the world is watching to see how we handle this case.
    So, again, I commend this committee for its support for the 
Special Immigrant Visa program. I urge that you take the 
necessary steps to see that these people are able to leave 
danger behind and come here to us. They earned it. They paid 
for it.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Crocker can be found 
in the Appendix on page 51.]
    The Chairman. Thank you very much.
    Next, we have Dr. Stephen Biddle who is also coming to us 
remotely. Dr. Biddle, you are recognized for your opening 
remarks.

STATEMENT OF DR. STEPHEN BIDDLE, PROFESSOR OF INTERNATIONAL AND 
  PUBLIC AFFAIRS, COLUMBIA UNIVERSITY; ADJUNCT SENIOR FELLOW, 
                  COUNCIL ON FOREIGN RELATIONS

    Dr. Biddle. Thank you, Mr. Chairman.
    I would like to thank the committee for this opportunity to 
speak with you today about Afghanistan and the important 
choices it faces there. I would also like to say that it is an 
honor to be part of such an august panel, with two colleagues 
that I have long respected and admired in Ryan Crocker and Seth 
Jones.
    Normally, I would have used my opening remarks to summarize 
the key points from my written submission, but that submission 
was written prior to Tuesday's announcement of the 50 percent 
reduction in U.S. troop strength in Afghanistan.
    In light of this new development, I thought I would take 
the liberty to use my opening comments chiefly to respond to 
the Tuesday announcement and to offer some thoughts on where 
U.S. policy should go from here in light of it; though, of 
course, I would be happy to respond to questions about my 
submission or any other aspect of the issue as the members may 
wish.
    In my view, the drawdown policy announced Tuesday was a 
mistake. I suspect like all of us here, I would like to see 
U.S. troops come home. But the question is when and how. And it 
seems to me that a progressive incremental withdrawal, in my 
view, is the worst of three possible options before us: total 
withdrawal, no withdrawal without a negotiated settlement to 
end the war, and the announced policy of partial unilateral 
drawdowns.
    As I argued in my submission, I believe our interests are 
best served by no further withdrawals without a settlement to 
end the war. In my view, we should maintain our current troop 
level chiefly for its political value as bargaining leverage in 
the ongoing talks between the Afghan Government and the Taliban 
but that we should be prepared to withdraw those troops 
entirely in exchange for negotiated concessions from the 
Taliban precisely in order to increase our ability to get such 
concessions from the negotiations.
    This view is premised on my hope that a settlement, 
although difficult, is achievable if we husband our remaining 
leverage carefully. Inasmuch as our troop presence is a major 
element of that leverage, in my own view, thus we should not 
give this leverage away unrequited. That said, a reasonable 
case can be made that the prognosis for a successful 
negotiation is now so poor that this is fruitless. I disagree, 
but this is a reasonable position. If so, however, the logical 
implication would be total withdrawal.
    Our current posture is vastly less expensive than it was 
during the 2009 to 2011 surge, but it involves sacrifice all 
the same. And as I argue in my written submission, our Afghan 
allies cannot maintain the current military stalemate 
indefinitely. Even if we maintain today's small U.S. presence 
indefinitely, the battlefield situation on the ground in 
Afghanistan is a slowly decaying military stalemate that the 
Afghan Government will eventually lose unless today's 
battlefield trends reverse and----
    [Audio malfunction.]
    The Chairman. Dr. Biddle, you went silent on us. I 
apologize for that.
    Dr. Biddle. Sorry.
    The Chairman. You are back. It is not your fault.
    Dr. Biddle. Some argue that I am better when silent. I 
suspect the committee's purposes are better served by----
    The Chairman. You are back. So go ahead.
    Dr. Biddle. Very well.
    The point I was making when I assume I went silent was that 
in a slowly decaying military stalemate, if nothing changes, we 
will eventually lose the war. This decay will eventually 
produce the collapse of the allied position in the country. And 
what that implies, then, if you accept that assessment, is that 
in the long run, the plausible alternatives are either eventual 
defeat or some kind of negotiated settlement before that 
happens.
    If a settlement really is impossible, then defeat is the 
likely outcome, and we would then be better served to lose 
cheaply via immediate total withdrawal than to lose more 
expensively via a series of slower partial withdrawals that 
simply prolong the process of failure and increase its cost. 
Instead, what the administration announced on Tuesday is the 
slower, more expensive version of failure.
    Whatever one thinks of the prognosis for a successful 
negotiation, it goes down every time we announce such partial 
withdrawals. We have two chief remaining sources of leverage in 
these talks: the promise of post-settlement aid and the foreign 
troop presence. The Taliban want us out. This has been among 
their most consistent and oft-expressed aims.
    In a negotiation where we are radically leverage-poor, 
troop withdrawal is thus a crucial bargaining chip. In fact, 
this political role as a bargaining chip for negotiation is 
now, in my view, the most important contribution U.S. forces 
make to the war. Of course, this is not their only role. The 
U.S. air strikes, in particular, are also important for 
enabling our Afghan allies to maintain today's stalemate, but 
our forces' political function as bargaining leverage in the 
negotiation is, in my view, the most important contribution 
they make.
    When we gradually draw down that troop presence, we thus 
reduce the leverage available from a now smaller troop 
presence, diminishing our ability to negotiate relatively 
favorable terms in the talks. And perhaps most importantly, 
partial incremental drawdowns encourage the Taliban to freeze 
the talks. Why should they offer concessions when the U.S. 
keeps giving away what they want for free, step by step, 
gradually over time?
    And every time we reduce U.S. support for the Afghan 
Security Forces, we create some chance that those security 
forces might break under the strain of reduced support, which 
gives the Taliban a further incentive to wait and see whether 
their opposition on the battlefield might just melt away this 
time.
    And even if the Afghan Security Forces don't break 
altogether, they will surely be weaker with less U.S. support, 
enabling a faster expansion in Taliban territorial and 
population control and moving the possible bargaining space in 
the talks further in the Taliban's direction, reducing the 
scale of concessions we could reasonably expect. All of this 
tends to stall real bargaining while the Taliban await further, 
potentially favorable developments created by our policy of 
progressive incremental withdrawal.
    Again, reasonable people can differ on the prognosis for 
these talks. I still believe there is a potential bargaining 
space for a negotiated settlement that would be much better for 
us and for our Afghan allies who have sacrificed so much than 
would be outright defeat. But I believe we just reduced that 
bargaining space via our withdrawal announcement. And if we--
but if we suspend further drawdowns and retain the remaining 
troops in theater pending a successful settlement, then perhaps 
we can still get out of this with something better than simple 
failure. But if one disagrees on this, the logical policy would 
be total withdrawal, not difference-splitting partial drawdowns 
that just make defeat slower and more expensive.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Biddle can be found in the 
Appendix on page 62.]
    The Chairman. Thank you very much.
    Dr. Jones, you are recognized.

 STATEMENT OF DR. SETH G. JONES, HAROLD BROWN CHAIR; DIRECTOR, 
      TRANSNATIONAL THREATS PROJECT; AND SENIOR ADVISER, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Jones. Thank you, Chairman Smith, Ranking Member 
Thornberry, and distinguished members of the committee, both in 
person and virtually, for the opportunity to testify before the 
House Armed Services Committee on an important--actually, a 
critically important subject, the U.S. military mission in 
Afghanistan and implications of the peace process.
    I am going to break my introductory remarks into four 
sections. First, U.S. objectives, not just in Afghanistan, but 
more broadly, and how they have evolved. Second is the state of 
the peace settlement and discussions right now. Third is the 
war and the Taliban itself. And, fourth, I will summarize with 
some brief conclusions.
    But let me just begin by noting, as others have noted, 
including Dr. Biddle, that U.S. policy options at this point 
two decades in are not optimal. They are suboptimal. We do not 
have a range of good options. And I think it is worth noting 
that.
    My concern, though, is absent a peace deal, the further 
withdrawal of U.S. forces will likely continue to shift the 
balance of power on the ground, in the military campaign, in 
favor of the Taliban, other militant groups including al-Qaida, 
and the Taliban's outside supporters which include Pakistan, 
Iran, Russia, and other countries, and outside actors. The 
drawdown will have an impact on the U.S. ability to train, 
advise, and assist Afghan National Defense and Security Forces 
in the middle of the war against the Taliban, a group which we 
should all remember is an extremist organization committed to 
establishing an Islamic emirate in the country, and something 
that I think we have got to grapple with, is that what we want 
in the end, is that what we want to leave behind in 
Afghanistan?
    So let me begin with my first section on U.S. interests. I 
think there is no question, as we have heard both from Chairman 
Smith and Ranking Member Thornberry, the U.S. is in a different 
position than it was in in 2001. There are other important 
objectives overseas, including competition with a rising China 
and aggressive Russia. There are also implications of COVID, 
including economic ones.
    The U.S. does, in my view, have some interests in 
Afghanistan and South Asia, a region that I would remind 
everyone has three of the U.S. major competitors. It has got 
the Chinese on the border, it has got the Iranians on the 
border, and it has the Russians very close by. And as we have, 
I think, seen with news reports this year, they have--they 
continue to have a relationship with the Taliban, including a 
lethal relationship.
    Al-Qaida continues to be active in Afghanistan. The numbers 
are relatively small. But I would urge anybody that has not 
seen it, there are a series of U.N. assessments, United Nations 
assessments, including one this summer, which continued to note 
that the Taliban retains close links with senior and lower 
level al-Qaida leaders, particularly ones associated with al-
Qaida in the Indian Subcontinent, al-Qaida's local affiliate. 
As the report concluded: Relations between the Taliban--I am 
quoting here--Relations between the Taliban, especially the 
Haqqani Network and al-Qaida, remain close, based on 
friendship, a history of shared struggle, ideological sympathy, 
and intermarriage.
    We also have--we have seen attacks and continue to see 
activity from the Islamic State's local affiliate, the Islamic 
State Khorasan Province.
    I also think there are broader, strategic interests that 
the U.S. has to be aware of, including regional balance of 
power competition between the Indians and Pakistan, both of 
which are nuclear-armed. And I do think we have to be mindful 
of a potentially worsening humanitarian crisis if we were to 
leave. Afghanistan has the second largest refugee population in 
the world at the moment, at 2.5 million. A withdrawal at this 
point would likely significantly worsen that prospect.
    Let me just move very briefly to the peace talks. We have 
already heard other witnesses remark along these lines. On 
February 29, 2020, the U.S. and the Taliban, not the Taliban 
and the Afghan Government, the U.S. and the Taliban signed 
agreement intended to be a first step. Negotiations began on 
September 15 of this year. But the peace process has stalled. 
In fact, I would argue it has never really begun meaningfully.
    So what we have right now is Taliban advances. Data right 
now suggests that Taliban attacks are at the highest levels, 
some of the highest levels of the war. This year, in 2020, they 
continue to fight.
    So let me just briefly conclude by noting that--and this 
really goes back to the announcement this week. The U.S. 
decision to go down to 2,500 troops did not occur because of 
successful peace talks. In fact, it occurred in spite of them. 
The U.S. did not coordinate--and I think this was a mistake--
meaningfully with NATO forces operating in the country. They 
were alerted just before the announcement. And I think it is 
worth noting that they stood with us on 9/11, committed to 
Article 5 of NATO, and then sent forces after that. So we do 
have other countries that have shed their blood in Afghanistan, 
sent advisors, diplomats, and intelligence officers.
    And then also, I think, a withdrawal has an impact on our 
intelligence collection and other capabilities in Afghanistan, 
particularly from CIA [Central Intelligence Agency] and the 
National Security Agency, as we withdraw forces. We will be 
increasingly blind to what is happening in the country.
    So moving forward, I think the U.S. goal should be to 
continue to build political consensus in Afghanistan, to 
support peace talks, and at least to prevent the overthrow of 
the Afghan Government by the Taliban.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Dr. Jones can be found in the 
Appendix on page 76.]
    The Chairman. Thank you.
    A couple of housekeeping items. We are going to have votes 
here shortly. Now, one of the advantages of the COVID voting 
thing is it is spread over an extended period of time. It is my 
intention, with the ranking member's consensus, that we 
continue the hearing and stagger when we go so that we can have 
members here asking questions. I will need someone to sit in 
for me when I go. We are going to keep going on that.
    Second, as we get into the Q&A [question and answer], as we 
discovered with remote people, it is really helpful if you 
direct your questions towards one specific witness. You are 
going to have a devil of a time getting through a 5-minute 
window there for bouncing all over the place remotely.
    And towards that end, let me start with you, Dr. Jones. You 
know, the general theme here seems to be, you know, we can't 
get out because of all the bad things that would happen, which 
raises the question of why is there so much pressure for us to 
want to get out. Now, I think it is really important to 
understand that.
    Number one, there was a strong feeling amongst a lot of 
people, I included, that no matter the scenario, we are not 
going to defeat the Taliban and we are not--there is not going 
to be a successful peace process. The level best that we can 
hope for by maintaining our presence is it doesn't get much 
worse. Okay. The idea that we are going to defeat the Taliban, 
peace is going to come, and we are going to have a stable 
government there, most people think is insane. I would say off 
the top of my head, you know, I can't predict the future, but 
if you tell me I got to bet a hundred dollars one way or the 
other, I am betting rather confidently that the chaos is going 
to continue. And we are in the middle of that chaos.
    Now, we are not as in the middle of it as we were before. 
But lives are still being lost, money is still being spent, and 
people are still--you know, our troops and others are still 
being forced to be sent over there. I think the American people 
are saying, for what? Okay. And if the answer is because, gosh, 
if we just hang in for another year or two, if we just send 
another 5,000 troops, we will get to a peace deal. I don't 
think anybody believes that, okay, not in any serious way. So 
we are not going to get there. That peace is not going to be 
achieved.
    So what happens if we pull out? Well, I mean, a slightly 
different flavor of chaos in the minds of most people. So we 
have protected lives and saved money and just traded one type 
of chaos for another, and that is a win.
    Now, the real threat is what we have talked about. Okay. 
Well, what if we have another al-Qaida-like situation? But I 
think the other conclusion is, as awful as the Taliban is, and 
there is a lot of awful governments all over the world doing a 
lot of awful things, do we really think that at this point, if 
the Taliban came back into power--they are fighting ISIS too, 
by the way. Those two do not get along. So they are not going 
to be snug and secure in a peaceful situation. Do we really 
think that we will face anything anywhere approaching the type 
of transnational terrorist threat that we mistakenly didn't see 
back before 9/11? I mean, that is the bottom line. Because I 
don't think so. I don't think that same type of threat is going 
to be there and, therefore, it doesn't justify the cost.
    And then the final point is, I get our partners, but I 
totally, you know--and I was all over the Trump administration 
for what happened in Syria, as a lot of people on this 
committee were. They did not consult. They pulled the rug out 
from under our allies in the blink of an eye. That is not what 
happened this time. The discussion to go down to 2,500 has been 
going on for months. Okay. And at some point, we had a 
disagreement with our allies and the President decided, sorry, 
this is what we are going to do. So I get the ally point, but 
if they are in a different place from us, that is something we 
have to manage.
    But, again, the question is, you know, can someone tell me 
that we are hanging out and less chaos is going to result, 
number one? And number two, can you really argue that we face 
the--let's say everything falls apart and the Taliban take 
over, do we really face a significant transnational threat at 
that point?
    Dr. Jones. Mr. Chairman, thank you very much for the 
questions. You have actually hit, I think, on what are the most 
important questions that the U.S. and the American population 
need to think through.
    My response is severalfold. One is, when I look at--since 
World War II, there have been roughly 200 insurgencies across 
the globe. In about 37 percent of those cases, the government 
won on the battlefield; about 35 percent of the cases, the 
insurgent side won; and at about 27 percent--these are my 
numbers--there was a peace settlement or some kind of draw.
    So just to be clear, that means about two-thirds of the 
cases we have had either a government win or a peace 
settlement. And I think, as I look at the odds, that is the 
kind of--those are the odds that I would look for in 
Afghanistan. I don't know whether a peace----
    The Chairman. Sorry to interrupt on that point. But that is 
like the guy who drowned by, you know, walking across the river 
with an average depth of 3 feet. Okay, that is great. Okay. But 
this is Afghanistan. And this is what is going on right now. 
And you don't sort of get the average. And I think you can look 
at Afghanistan and see where we are going to fall on that 
ledger. I mean, the average, that is nice that out of 132 
things, but this is a very specific case with very specific 
facts that ought to inform that opinion as well. Don't you 
think?
    Dr. Jones. Yes, absolutely. I have spent much of the last 
20 years in Afghanistan. I would just say that if I am a 
betting person right now, those are the odds that I would be 
looking for in the foreseeable future.
    I would note a few other things. One is that the U.S. has 
been successful with its force presence there in severely 
weakening al-Qaida, including killing Osama bin Laden and a 
number of senior leaders. And actually most importantly, I 
think, is some of the recent killing of al-Qaida leaders have 
actually been Afghan forces that have been supported by U.S. 
forces. And I think what we are seeing is some successes, 
particularly among Afghan special operations forces; they still 
need U.S. help, but we are making progress.
    What has me concerned, Mr. Chairman, though, is that in 
2011, the U.S. pulled out of Iraq, and the situation 
deteriorated significantly. Now, the upside in Iraq is that we 
had an ally where we could push forces back in. In Afghanistan, 
were we to leave, we would have an enemy in Kabul, the Taliban. 
The ability to come back in a meaningful way, I think, would be 
much more significant.
    And I think what worries me, and this gets to your final 
question, is the number of militant groups operating in some 
capacity in Afghanistan today, not just al-Qaida, but a range 
of the Kashmiri groups, including ones that perpetrated attacks 
in Mumbai that involved Americans like David Headley, still 
persist.
    So what I can't say is tomorrow things are going to get as 
bad as they were, say, on 9/11, but I think the trajectory is 
where I would be concerned about.
    The Chairman. Fair enough.
    One more question, and I will just have to take this for 
the record because I want other people to get in here.
    But, Dr. Biddle, you had made the point about, you know, 
basically all or nothing. And I do think that if we go the 
nothing route, you still have to draw down. And I think you 
would agree with that. You can't just pull them out tomorrow. 
You've got to do it over, you know, a certain amount of time 
and be safe.
    But the other point that I would like if you could give me 
a written--sir, you used to be on that screen, and now I am 
just looking at myself, so it really doesn't do me any good.
    But the question is, I have heard the argument that the 
2,500 troops, and I have heard this from senior Pentagon 
leaders right now, is a sufficient counterterrorism force. 
That, in fact, that 2,500 number does--it performs exactly the 
mission that Dr. Jones just alluded to, which is to be able to, 
you know, keep the more--the terrorist groups at bay.
    So if you could just give me a written response on why you 
don't think 2,500 makes sense from a CT [counterterrorism] 
standpoint, that would be helpful.
    With that, I will turn it over to Mr. Thornberry for his 
questions.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Thornberry. Let me ask each of you to address this 
question. And we will go Ambassador Crocker and then Dr. Biddle 
and then Dr. Jones.
    The question is, if you had 1 minute to speak with the 
President-elect on what he should do in Afghanistan, what would 
you tell him? So what----
    Again, Ambassador Crocker, we will start with you. One 
minute to speak with the President-elect on what he should do 
in Afghanistan, what would your message to him be?
    Ambassador Crocker. Joe, for strategic reasons, stay the 
course. As my colleagues, Dr. Biddle and Dr. Jones, have 
pointed out, the worst thing we can do is what we are doing in 
a [inaudible]. So I would tell the Vice President that hold 
where we are prior to President Trump's announcement and then 
reassess. The most important thing to reassess would be the 
[inaudible]. We could not go over it with them any further 
without some meaningful concessions from the Taliban. And we 
would need to show the strategic patience to see that through, 
remembering that [inaudible] security as a Nation and our 
values as a Nation.
    Mr. Thornberry. Okay. We had some connection issues there 
that made it hard for me to understand everything you were 
saying. It may be we will either work on the connection or you 
could help provide that to the committee in writing when we are 
done, because it was hard to--we didn't get all the words.
    We will try, Dr. Biddle, can you address that?
    Dr. Biddle. Yeah. My advice would be that the plausible 
long-term outcomes at this point are either outright defeat or 
a negotiated compromise settlement. Our strategy should be to 
get serious about a compromise negotiated settlement, and we 
should understand our troop level in Afghanistan in that light. 
That means we should maximize its potential leverage as a 
bargaining chip, which means don't partially withdraw without 
some sort of compensating concession from the Taliban. If you 
think the negotiations are hopeless, which is a defensible 
position, the sensible strategy in that scenario is cut our 
losses and get out altogether.
    Mr. Thornberry. Sorry, if I could follow up. So would you 
go back up to 4,500 because you believe that there is a chance 
of negotiations?
    Dr. Biddle. That would be my preference. Whether that is 
politically sustainable is an area beyond my expertise, of 
course. But I think the chance of a compromise settlement is 
not zero. I think the cost of our remaining presence at this 
point by comparison with what we were paying in 2009 to 2011 
certainly is extremely small. Our interests in Afghanistan, 
though limited, are nonzero. Given the costs of continuing to 
pursue a settlement, which I think are fairly modest, I think 
it is in the U.S. interest to do our best, to try and get out 
of this with a deal we can live with rather than simply 
failure.
    Mr. Thornberry. Okay. Thank you.
    Dr. Jones.
    Dr. Jones. I think to follow on what my two colleagues 
noted, I would say three things. One is I wouldn't go down any 
further. I think I would ask, among other issues, I would ask 
the commanding general, U.S. general in Afghanistan and the 
Chairman of the Joint Chiefs of Staff for their advice on what 
the 4,500 or the 2,500 gives us. Do we need more than just a 
counterterrorism force? Do we need to continue to provide 
training, advice, and assistance. And I think that is going to 
be an analytical judgment from our senior military leadership 
is where to go.
    The second is I think we do need to show commitment to the 
Afghan Government. Some of this will be financial. Some of this 
is just a political commitment that we will remain an ally 
against an extreme Islamic emirate.
    And third, I think we have got to be able to tell the 
Taliban that our one major--or one of our major bargaining 
chips, our forces, they are not going to come down without a 
peace settlement. So I think we have got to ramp up pressure 
along those lines. Those would be my three issues.
    Mr. Thornberry. Okay. Good. Thank you.
    I yield back.
    Mrs. Davis [presiding]. Thank you.
    I am going to continue, Susan Davis, with the questions, 
and then we will try and grab our colleagues as they come in 
the room.
    You know, this is always difficult for me because I have 
spent the last 15 years traveling to Afghanistan, visiting our 
troops, our female troops particularly, and our deployed moms. 
And over the course of that time, we witnessed the progress of 
women who had started businesses, had served in parliament. And 
certainly as Ambassador Crocker said, you know, we shared with 
them that we had their back. It doesn't feel like we have their 
back anymore.
    And I wanted to just get a sense, Dr. Crocker--Ambassador 
Crocker, I probably know your response, but from Dr. Jones and 
Mr. Biddle, just where that value analysis falls in this and 
whether--what's the role of Congress in that? Can that be 
helpful or no longer helpful?
    My other concern is really about, you know, talking about 
the challenges of integrating the Taliban into society. I mean, 
is there any hope for that? Is there any reason anybody should 
trust that that is possible? And given that, where do we go? Is 
there any kind of a plan B that actually incorporates that 
concern?
    We haven't really spoken much about ISIS. And I think we 
know that former Taliban fighters are going to be looking for 
another group to pick up arms with. And despite the fact that 
they don't have any great feeling for one another, 
nevertheless, it can be attractive.
    So I wonder--first, let me go to Dr. Biddle, if I may, and 
then to--or, Dr. Jones, why don't you start.
    Dr. Jones. Thank you very much. All of these were important 
issues. Let me start with the women issue. I have an article 
out in West Point, the U.S. Military Academy's journal, it 
comes out today, the CTC [Combating Terrorism Center] Sentinel. 
And among other things, it notes--it looks at the Taliban 
today, who they are. And I think one of the things it notes is 
that the Taliban's continuing persecution of women is deeply 
troubling. Women have been victims--women that have been 
victims of domestic violence by the Taliban have little 
recourse--or living in Taliban-controlled areas have little 
recourse to justice in Taliban courts. The Taliban continues to 
discourage women from working, denies women access to modern 
healthcare, prohibits women from participating in politics to 
look at Taliban's makeup during the negotiations, and supports 
punishments against women, such as stoning and public lashing. 
So I think Congress has a very important role to keep this as a 
front burner issue.
    Now, you know, Afghanistan does have some conservative 
elements of society, so there is a broader debate. And I don't 
think we want to entirely put our--our values on Afghanistan. 
But I think what we have seen is there has been major progress 
on this in the past 20 years. A Taliban takeover, in my view, 
will eliminate that virtually immediately.
    I do think, you know, we have had some examples of the 
integration of senior Taliban leaders into the government or at 
least on the government side. Rice Pograni, Mullah Zaeef, Mudua 
Akill, they have generally behaved when they have integrated 
back to the government. So I think we have some cases where we 
can trust them.
    And I would just finally highlight your concerns about the 
Islamic State. It has shrunk in size as it has been targeted, 
but I think a growing civil war in the country does provide an 
opportunity for them to regenerate.
    Mrs. Davis. Thank you.
    Dr. Biddle, would you want to comment? And I would love to 
hear from Ambassador Crocker quickly too.
    Dr. Biddle. Ma'am, certainly. We have many important values 
at stake in Afghanistan. The rights of women are an important 
value. The rights of ethnic minorities are an important value. 
The rights and the future of an entire generation of young 
Afghans who put their trust in us and have tried hard to build 
a new country and have brought about actually significant 
change in Afghanistan since the Taliban were in control in 
2000.
    The trouble is, if we want to realize these values, we are 
going to have to make an investment commensurate with the 
threat to those values. If we want to defend the rights of 
Afghan women, and we are concerned that the Taliban won't 
respect those, it is going to require a military investment on 
our part sufficient to prevent the Taliban from taking control 
of the country.
    The dilemma we face, of course, is that we have interests 
that we care about, but many Americans worry that those 
interests aren't commensurate with the scale of military effort 
from the United States that would be required to secure that. 
So we are stuck in this unfortunate situation where we have to 
look at a potential compromise to values we care about and 
should care about to at least some degree, given the limits and 
the scale of the military investment we are willing to make. 
And given that, it seems to me, the only way to square that 
circle at the moment is through the negotiating process.
    Now, with respect to the Taliban and whether we can trust 
them and what their behavior is likely to be, obviously, the 
Taliban are not an ideal negotiating partner. One rarely 
encounters those in war termination.
    Mrs. Davis. Thank you, Dr. Biddle. It is my responsibility 
to keep this going. So as much as I would love to have you 
continue to speak, Mr. Conaway, you are next.
    Mr. Conaway. Thank you, Madam Chairman.
    I think both Dr. Jones and Dr. Biddle helped answer part of 
the question. The only question really is, the Taliban of the 
nineties, are they distinctly different than the Taliban of 
today? And what I heard Dr. Jones say is not really, that what 
we saw happen in Afghanistan to women, thought leaders, 
teachers, all forms of folks who disagreed with the Taliban, 
they were eliminated, killed, and persecuted. I am not sure 
that wouldn't happen today.
    And I think the question for Americans is making these 
decisions with eyes wide open. In America today, we tend to 
defend the rights of smaller and smaller groups of individuals 
against the rights of larger groups, and to great lengths. And 
so the question is are we willing to do that, you know, in 
Afghanistan? Is it the right thing for us to do? Those kinds of 
issues. So this is a real conflict within ourselves as to what 
we do next in that country.
    But I do think that we bear responsibility for having led 
the reforms that are there, the expectations, particularly on 
folks who have grown up post-Taliban era, they don't really--
well, they may know the history. They didn't live under the 
Taliban rule in the mid-nineties, late nineties, and so their 
expectations are different.
    Are those expectations--and either Dr. Jones or Ambassador 
Crocker--are those expectations strong enough to lead that 
nation out of the wreck that a Taliban takeover, again, in my 
view, would happen? Can they lead themselves out? Are they 
strong enough to take those risks to move forward?
    Dr. Jones.
    Dr. Jones. Well, I would certainly say, without U.S. and 
broader international assistance, they are not. And I think 
this is a--it is an unfair fight in that sense, because the 
Taliban are continuing to have sanctuary in neighboring 
Pakistan, support from Iran and Russia.
    But I think with support, both some military, even small 
levels of military, and financial support, some financial 
support--the Europeans have actually provided a fair amount of 
assistance to a range of these programs--I do think the Afghan 
Government and the population is able to do what you are 
outlining.
    It will take time, but I think we see in public opinion 
polls conducted by The Asia Foundation that the population 
supports that kind of a vision and does not generally support 
the Taliban's extremist vision.
    I would say in response to your first comment, I do think 
that the Taliban has modified its views on a few issues. They 
appear to be allowing some girls to go to school now. They are 
a lot more technologically savvy. They were not in the 1990s. 
But in terms of ideology, same kind of organization, same kind 
of Islamic emirate that they are trying to establish.
    Mr. Conaway. Professor Crocker, your thoughts?
    Ambassador Crocker. Yes, I hope you can at least hear me 
now.
    I would associate myself with the remarks of my two 
colleagues. I do not see this as mission impossible and, 
indeed, the experience we have had with force levels one-tenth 
of what they were when I was Ambassador to Afghanistan indicate 
that that is the case.
    So this is--you know, we are not facing defeat on the 
battlefield, so it is ironic that we seem to be trying to 
defeat ourselves. It is true that all wars must end and return 
to the political process; it is true in this one, but not on 
the terms that this administration has set for these talks. 
These are surrender negotiations.
    I would hope the President-elect, when he becomes 
President, will simply freeze them, not cancel them out, but as 
my colleagues again have suggested, to tell the Taliban that, 
until you live up to your side of the deal, we are not going 
anywhere, and then be prepared to back that up.
    Mr. Conaway. Dr. Biddle, is it fair to say that the Taliban 
is getting significant outside help and that an Afghan 
Government with no outside help, that would be an unfair fight?
    Dr. Biddle. Yes, absolutely. The Taliban have been getting 
substantial support from the Pakistanis and from others and 
from illicit economic activity like the drug trade in 
Afghanistan for a very long time.
    I think there is very good reason to believe that if 
outside assistance to the Afghan Government ceased, the 
Afghanistan National Security Forces would break up, the 
Taliban would then quickly march into Kabul, and we would get a 
chance to find out what chaos presents in Afghanistan. That is 
not a social science experiment I would personally like to run.
    I think it is important to note that the great majority of 
the money required to keep the Afghan National Security Forces 
in the field comes from outside. Their operating budget 
annually is more than twice the entire domestic revenue of the 
Afghan Government. If that outside support to the Afghan 
Security Forces were to stop, their ability to sustain a 
stalemate, much less do better, I think would go away quite 
quickly.
    Mr. Conaway. Thank you, gentlemen.
    Yield back.
    Mrs. Davis. Thank you.
    Mr. Langevin, you are next.
    Mr. Langevin. Thanks, Madam Chair. Can you hear me okay?
    Mrs. Davis. Yes, we can hear you.
    Mr. Langevin. Okay. Thank you.
    So let me start with Dr. Jones. First, I want to thank all 
of our panelists for testifying today.
    But, Dr. Jones, I would like to go back to the chairman's 
question. If I understood it right, he seemed to say that if we 
stay there could be chaos, if we withdraw there could be chaos, 
so it is just one kind of chaos for another, and that we were 
caught off guard, not anticipating the plotting or planning 
that was going on before 9/11, and that do we really think that 
that kind of thing could go on again without us knowing.
    So if I understood that question the right way, my question 
is, if we are not there and we do withdraw precipitously, how 
would we know with adequate fidelity whether al-Qaida or any 
other terrorist organization is plotting or planning against 
us? And without a presence there, how could we respond 
effectively and know exactly where to hit?
    I know that we would certainly engage still in intelligence 
gathering with our partner agencies. But would we even know 
enough how and where to adequately be able to respond should 
there be a known threat to America or our allies?
    Dr. Jones. Thank you. Very, very good questions.
    On the chairman's--on the discussion with the chairman, my 
response was essentially that while--I wouldn't characterize 
necessarily the situation as chaos now. I mean, there is a war. 
But I think were the U.S. to withdraw, it would significantly 
worsen.
    I mean, it is worth pointing out that the Taliban controls 
not a single major city right now, and compare that, say, 2014, 
2015, 2016, to Iraq and Syria where the Islamic State 
controlled Raqqa and Fallujah and Ramadi and Mosul. The Taliban 
controls zero, zero cities right now.
    So I think it is worth noting that that would change, I 
think. My assessment is that would change with a U.S. 
withdrawal.
    How would we know, you ask. It would become a lot more 
difficult. Obviously, as you noted, the U.S. would have some 
intelligence collection capabilities. But it would be much more 
difficult to understand what al-Qaida was doing, what the 
Taliban, what other militant groups were doing in Afghanistan 
without a military--CIA, NSA [National Security Agency]--
meaningful presence in the country.
    Mr. Langevin. And I would agree with that. That would be my 
interpretation as well.
    Ambassador Crocker, the U.S.-Taliban agreement commits the 
Taliban to preventing any groups, including al-Qaida, from 
using Afghan soil to threaten the security of the United States 
and its allies. So what would the verification mechanism be to 
ensure the Taliban are compliant? And would a troop reduction 
impact our ability to ensure the Taliban are compliant?
    Ambassador Crocker. Thank you for that excellent question.
    The Taliban has no intention--and in their view no need--to 
make good on any of their commitments. They will say what we 
want to hear, but they know that we are going home as these 
negotiations are currently structured. And, again, the 
President's latest decision to cut by half our small remaining 
force tells the Taliban all they need to know about our staying 
power and our willingness to continue our support and our 
presence in Afghanistan.
    So unless or until this whole so-called peace process 
effort is restructured to show that we are serious about this, 
that if they do not live up to their basic commitments we are 
not going away--if there is a single phrase that I would 
commend to this committee on what we need, we need strategic 
patience.
    The Taliban and al-Qaida have that strategic patience. They 
believe they can outlast us, and we are proving them right. We 
have got to stay and we have got to show that we do have the 
will to stay a course until we see circumstances in Afghanistan 
that warrant further withdrawal.
    Mr. Langevin. Very good. Thank you very much to all of our 
panelists.
    I yield back.
    The Chairman [presiding]. Thank you.
    Mr. Byrne, you are recognized for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman. Been a great morning.
    So I am not an expert on this issue like the three of you 
are, but I am an expert on what the people in my district 
think. We all are. That is how we got here. And I don't think 
what the people in my district think is much off of what the 
people in America in general think on this issue.
    The people of my district are tired of nation building in 
Afghanistan. They think 19 years, thousands of lives, American 
lives lost, all these injuries, all these hundreds of thousands 
of service men and women lives disrupted, obviously billions 
and billions and billions of dollars, you know, enough.
    So I think they are not for nation building anymore. We 
have done great things. Ambassador Crocker has made a great 
point about all that. But my folks think we have done enough. 
And I think they probably would support a continuing 
counterterrorism effort, okay, they don't want al-Qaida to get 
back in control there.
    So when you talk about the drawdown, the question in my 
mind is, what is the right number? Can we have a successful 
counterterrorism effort with 2,500 versus 5,000 troops there?
    And, Dr. Jones, I will start with you and ask you that 
question.
    Dr. Jones. That is really the $64,000 question. And let me 
say----
    Mr. Byrne. It is a lot more than that.
    Dr. Jones. That is probably true. The $64 billion question 
maybe.
    Mr. Byrne. Yeah.
    Dr. Jones. I am tired of nation building. We are well 
beyond that. And I don't think anybody, as you note, is talking 
about anything close to the 100,000 forces we had in 
Afghanistan in 2009.
    What I would say is the question I think that we need to 
ask our military leadership is, is 2,500 enough to prevent a 
Taliban overthrow of the government? For me it is not just a 
counterterrorism issue. It is also a prevention of the 
overthrow of the government.
    And so what does 2,500 give us versus something closer to 
4,500 or 5,000? That is a question for General Miller. That is 
a question for the Chairman of the Joint Chiefs. And I think 
that is where I would come back to.
    I think, again, I would say it is more than just killing or 
capturing al-Qaida leaders. It is also, do we want to prevent 
the overthrow of the government, and how can we continue to 
sustain and support the Afghan Government to do the fighting 
and dying?
    Mr. Byrne. Well, I think I know the answer to this, but let 
me ask it because I think it is a fundamental question.
    Is it a given, if the Taliban take back over again, that 
they will allow the country to be a harbor for al-Qaida? How 
much they hate ISIS, I think they still like al-Qaida. Will 
they allow al-Qaida to be harbored again?
    Dr. Jones. I would answer that in two ways. One is the U.N. 
assessments in 2020 have been unambiguous on this, that they 
continue to have strategic, operational, and tactical-level--
the Taliban has strategic, operational, and tactical-level 
relations with al-Qaida, al-Qaida senior and al-Qaida in the 
Indian Subcontinent. And I think we have also seen local 
Taliban commanders have been willing to give sanctuary to al-
Qaida leaders in areas that they control.
    So I think the answer there is, yes, we will see--continue 
to see Taliban/al-Qaida relations in the future.
    Mr. Byrne. On that last question, Dr. Biddle, what is your 
opinion?
    Dr. Biddle. Yeah, I would agree with my colleague, Dr. 
Jones. It is a mistake to separate counterterrorism and the 
survival of the Afghan Government. If the Afghan Government 
falls and the Taliban take over or there is simply a chaotic 
civil war, the terrorism threat from Afghanistan will go 
substantially up and the ability of a handful of American 
troops operating from a handful of bases that will look like, 
you know, a sieged fort disaster in the middle of a catastrophe 
will be very, very limited.
    Worse still, the security of Afghanistan's neighbors will 
be importantly implicated, and especially the security of a 
nuclear-armed Pakistan. In the event that chaos in Afghanistan 
flows across the border in the aftermath of a government 
collapse, we then have the potential for militant groups in 
Pakistan, if that government falls, getting their hands on 
actual usable nuclear weapons.
    So I think the tendency to say what we really want is 
counterterrorism, let's forget all of this counterinsurgency to 
protect the government, is a false dichotomy in very important 
ways.
    Mr. Byrne. Very quickly, Ambassador Crocker, on that last 
question?
    Ambassador Crocker. I share the view, Congressman. We have 
seen this movie before. We were heavily engaged with the 
Pakistanis and Afghan fighters throughout the decade of the 
1980s to expel the Soviets. We succeeded, and then we walked 
out.
    What did we get? The Afghanistan civil war, the rise of the 
Taliban, and the road to 9/11.
    It would be folly to think it is somehow going to be 
magically different this time if we walk out. As my colleagues 
have said, there is no doubt about the link between al-Qaida 
and the Taliban. Again, the Taliban gave up the country for al-
Qaida.
    The Chairman. I apologize, Ambassador, but the gentleman's 
time has expired.
    Mr. Garamendi, you are recognized for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And to the witnesses, thank you very much.
    To my colleagues for their questions, you have provided 
some really good questions and good insight into the situation. 
Hopefully I can do the same.
    I am looking at the--all of you have argued for the 
presence of American troops somewhat higher than 2,500 for the 
purposes of securing a negotiated settlement between the 
Taliban and the Afghan Government. Could you please describe 
what that settlement would look like? What exactly do we want 
to see? How will the Taliban and the Afghan Government merge 
into some sort of a reconciliation?
    Let's start with Mr. Jones, and then we will go Crocker and 
end with Biddle.
    Dr. Jones. Thank you very much for the question.
    I mean, I think it is important to ask very specifically 
what a settlement might look like. And, obviously, it is at 
this point, with negotiations just starting in September, it is 
difficult to predict where they might go.
    But I think what we have seen in those Taliban that have 
defected and come to the Afghan Government side is a 
willingness to participate in the political process.
    I think what we probably have to see is some compromise on 
both sides on issues, including power-sharing arrangements, 
ministry, key ministries, including security services.
    I think one would ideally want to see the Taliban allowed, 
as they have been in some other wars--think of El Salvador or 
even Colombia, where there was a peace deal--demobilization, 
disarmament, and reintegration of fighters, some cases 
potentially into the government security services. I think 
there also has to be some discussion on the Afghan 
Constitution, the role of Islam in the Constitution.
    So I think the issue is can we get to a place where the 
Afghan Government and the Taliban can compromise on a range of 
these types of issues and get support from their 
constituencies, which will be hard, and I think there is room 
for bargaining.
    Mr. Garamendi. I am going to interrupt you. I have just a 
few moments. So a short answer would be necessary here.
    Let's go on.
    Mr. Biddle.
    Dr. Biddle. Yeah, I think the nature of the bargaining 
space here is that the Taliban would have to give up several 
things. They would have to break with al-Qaida. They would have 
to renounce violence. They would have to disarm. And they would 
have to accept some variation of today's Afghan Constitution. 
That is a lot, but it is plausible.
    We would have to give up a lot. We would have to legalize 
the Taliban as a political actor in Afghanistan. We would have 
to agree to withdraw all foreign troops, including our 
counterterrorism presence, unless the Afghan Government asked 
us to stay to train their troops to defend their own borders. 
And we would have to provide the Taliban with some sort of set-
aside of guaranteed offices in the Afghan Government, 
guaranteed seats in the Afghan Parliament.
    They know they are unpopular. If all we are doing is 
offering to let them run for election in ways they know they 
would lose, they won't agree to a deal.
    Where turkey will be talked is over what kind of set-aside. 
How big? What will the power sharing look like? What version of 
the Afghan Constitution will we get? But I think that is what 
the general bargaining space within which a deal would be cast 
looks like.
    Mr. Garamendi. Thank you.
    Ambassador Crocker. Ambassador, your thoughts on this? What 
is a negotiated settlement?
    Apparently Ambassador Crocker is not available.
    The Chairman. I think we lost him for one reason or 
another. We will work on that.
    Go ahead, John.
    Mr. Garamendi. The next question really is one that we need 
to consider. It has been said a couple of times. And that is 
the neighborhood is also involved. We haven't talked much about 
the neighborhood. Could you do so in, I don't know, 15-second 
spots here, starting with Mr. Biddle?
    Dr. Biddle. Fifteen seconds on the neighborhood?
    The most important neighbor is Pakistan. They are a 
nuclear-armed country that is fighting a civil war at the 
moment. That civil war could go badly for them. If it does--and 
the prospects of that would go up a lot if the government in 
Kabul collapsed--then you could have a failed state with 
nuclear weapons running around and lots of militants that don't 
like us any more than they like them.
    Mr. Garamendi. I should not have asked for 15 seconds.
    Dr. Biddle. I could go on longer if you wish. That is up to 
you.
    Mr. Garamendi. Let's go Jones.
    Dr. Jones. Agree with Dr. Biddle. Pakistan is the primary 
supporter of the Taliban. It is where its leadership structure 
is located. Taliban also does receive some assistance from Iran 
and Russia, among others.
    The Chairman. Thank you. Your time has expired.
    Mr. Garamendi. So in my final 5 seconds here, I just would 
simply say that we need----
    The Chairman. John.
    Mr. Garamendi [continuing]. We need to consider the 
neighborhood in all of this.
    Thank you very much.
    The Chairman. Thank you.
    Mrs. Hartzler is recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And I appreciate the questions of my colleague about the 
status of the women in Afghanistan. I had the privilege of 
traveling with Representative Davis--we are going to miss you--
but on one of those trips and met with many of the women who 
are now in Parliament and heard some of the stories of what 
life was like when Taliban was in charge. And so I am very 
concerned about that. But since there have already been some 
questions asked about that, I wanted to move on.
    Start with Mr. Biddle, talking about the status of the 
Afghan National Defense and Security Forces. We have invested 
in them for years. And I would like you and the other witnesses 
to kind of summarize in your mind the progress that has been 
made in their abilities. And do you envision a future where the 
Afghanistan security forces are self-sustaining? And what level 
of support or time commitment should the United States provide 
to ensure Afghanistan has adequate defense forces?
    And along with that goes, along with our assistance, should 
the United States and international community continue to 
provide military and economic assistance, specifically economic 
assistance to Afghanistan, into the future?
    So, I know there are several questions there. But, Mr. 
Biddle, if you could start, that would be great.
    Dr. Biddle. Time permitting.
    I am on the pessimistic end of the spectrum of opinion on 
the prognosis for the Afghan National Security Forces. I think 
what we see with a lot of forces of this kind in the developing 
world, not just in Afghanistan, is in weakly institutionalized 
political settings, where you don't have a judiciary, you don't 
have courts, you don't have police that can resolve conflicts 
between armed elites, the government is required to maintain an 
internal balance of power in which it cannot allow its own 
military to get too strong, because it threatens other warlords 
and armed actors within the elite, broadly defined. And that is 
a bigger threat to the government usually than an insurgency 
is.
    What that means is you end up with corruption and cronyism 
as tools to control the threat that the national military poses 
to armed elites within the regime, broadly defined, and that is 
a profound, systematic, deeply rooted limiter on the combat 
potential of the Afghan Security Forces, and forces in similar 
countries elsewhere, in their ability to actually defeat an 
insurgency.
    I think they are strong enough to maintain a slowly 
decaying stalemate. There are almost 300,000 of them in the 
country after all at the moment. I don't think they are a 
plausible capability for defeating the insurgency, regardless 
of plausible levels of U.S. support.
    Now, in terms of U.S. aid moving forward, I think the 
primary role for U.S. aid moving forward, once we get a 
settlement--before a settlement--is to keep the Afghan forces 
in the field and maintaining a stalemate. Without our support, 
they can't do that.
    After a settlement, aid will be required as a way of 
enforcing the terms of the settlement. The presence or absence 
of outside aid is the critical tool to get a power-shared 
government, in which the Taliban will play a role, to behave 
itself and observe the terms of the agreement.
    Therefore, some kind of international aid is going to be 
necessary in the long term, nothing like the current scale. But 
a complete shutdown of U.S. aid, even if we get a settlement, 
will lead to a collapse of the settlement because we will lose 
our leverage to enforce its terms.
    Mrs. Hartzler. Let me follow up real quickly before we go 
to Dr. Jones.
    You mentioned the courts. So when I was there in 2011, we 
visited with our Department of Justice and officials from the 
State Department. We were there actually helping them set up 
their court system, and it was progressing.
    What would you say is the status of the courts? You 
indicated that you think there is no ability of the courts to 
maintain justice. Could you expand on that, please?
    Dr. Biddle. I think the courts are better than they were, 
but they have the fundamental limit of their inability to 
enforce adjudication of disputes on armed members of the elite. 
We have seen over and over again that the kind of grand mal 
corruption that is used to maintain this internal balance of 
power within the Afghan elite, broadly defined, is largely 
beyond the ability of the courts and the judicial system to 
solve.
    When Afghan power brokers are accused of corruption and 
evidence is presented, the judiciary system as a general rule 
has been unable to enforce its will on them.
    Mrs. Hartzler. Thank you.
    Dr. Biddle. And I don't think that is surprising.
    Mrs. Hartzler. Thank you.
    Thirty seconds, Dr. Jones. Can you expound on any of these 
topics?
    Dr. Jones. Yes. Actually just briefly, starting with women, 
I think we have also seen the Taliban in areas they control 
today, not just in the 1990s, oppressive of women. So their 
track record today is not very good.
    I think the area where we have seen the most success on 
Afghan National Defense and Security Forces has been the 
commandos, roughly the 20,000 commandos, and I think the 
important lesson here is that has been sustained U.S. training 
from special operations forces. Those are the best. They are 
the best trained, they are the most consistently trained, and 
that is where I think we have had the most success.
    Thank you, ma'am.
    Mrs. Hartzler. Thank you very much.
    Yield back.
    The Chairman. Mr. Norcross is recognized for 5 minutes. And 
I believe we do have Mr. Crocker back. So if you wish to ask 
questions of Mr. Crocker, you can do that as well.
    Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    This is directed to the Ambassador.
    The 15th of January is the date by which the report has the 
withdrawal of the troops. What strategic advantage, if any, did 
we achieve, or what are we getting in response for the 
drawdown, in your opinion?
    Ambassador Crocker. We are getting nothing in response to 
that drawdown. That has been the problem with these talks from 
the beginning. By sitting down with the Taliban without the 
Afghan Government in the room, they knew from the start that 
this is a negotiation on the terms of our surrender. And 
everything that has happened since I think has validated that 
view in the eyes of the Taliban.
    So they will continue to press their offensive, and we will 
continue to withdraw. That is not a staged, reasoned step. It 
is, frankly, cutting our force in half in 2 months. That is a 
rout.
    Mr. Norcross. So that brings me to the next question, for 
Dr. Biddle.
    One of the four pillars, obviously, in my opinion, is the 
[inaudible] harboring terrorists. We have seen so many times 
throughout our history the plausible deniability: ``I had no 
idea they were there.''
    In your opinion, how does one enforce or obtain true 
information that is verifiable whether they are harboring 
terrorists? And that is a relative question.
    Dr. Biddle. Yeah, there are two pieces to that. There is 
the intelligence problem of figuring out whether they are 
behaving themselves, whether they are complying with the terms 
of whatever agreement we eventually reach. And then there is 
the issue of leverage, if we decide that they are not 
complying, to force them back into compliance.
    On the intelligence side of this, it is partly a function 
of the intelligence mechanisms of the U.S. Government. But it 
is also a part, in part, a function of the intelligence 
mechanisms of Afghans who oppose the Taliban within a power-
sharing regime.
    If we get some sort of settlement, it won't involve a 
Taliban takeover. If what we end up with is a surrender 
instrument for us, then, of course, we will offer no aid to 
support that kind of a deal. If we are talking about a deal 
that is in our interest and that we are willing to support that 
will involve power sharing in which we retain allies within the 
Afghan Government who would have an incentive to report to us 
violations of the agreement by the Taliban, that, coupled with 
our own intelligence, is necessary for us to know whether the 
agreement is being violated.
    If it is violated, our leverage to bring them back into 
compliance is aid. That is one of the reasons why I think 
continued aid is essential if any agreement we reach is going 
to be stable.
    Mr. Norcross. Thank you.
    So, Dr. Jones, let's bring this back to the end. Does 
Taliban control automatically equal a terrorist, an existential 
threat of some sort to the United States--existential goes too 
far--but a threat to the United States, either they directly or 
through them allowing other groups to come back in? Does that 
automatically mean they are going to look at the United States 
for some sort of an additional attack?
    Dr. Jones. Well, I think it is important to differentiate 
types of terrorist organizations. The Taliban has been 
committed to conducting attacks against the Islamic State 
Khorasan Province, in Afghan provinces such as Kunar and 
Nangarhar. So I think we could expect the Taliban to fight 
those kinds of organizations. But those are a minority.
    I think, based on the relationship today between the 
Taliban and al-Qaida at the strategic, operational, and 
tactical levels, I think we could expect over time that the 
U.S. national security interests are threatened based on 
international and regional terrorist groups operating in 
Afghanistan, including al-Qaida.
    Mr. Norcross. So assuming that, maybe not immediately, that 
we are going to be back in the same situation, what does that 
new Afghanistan look like in terms of troops?
    Obviously, after the Second World War, we are not looking 
at Germany, but certainly we have been prepared for Russia and 
the Soviet Union. Are we potentially looking at a long-term 
presence in order to keep in check those who would do us harm?
    Dr. Jones.
    Dr. Jones. My answer to that is, until there is a peace 
agreement or something else that weakens the Taliban, yes, I 
think my judgment would be a continuing U.S. military presence, 
a small presence that is able to fight against these and weaken 
these organizations.
    The Chairman. Thank you. The gentleman's time has expired.
    Mr. Norcross. Thank you. I yield back.
    The Chairman. Thank you.
    Ms. Stefanik is recognized for 5 minutes.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Dr. Jones, I represent Fort Drum, which is home of the 10th 
Mountain Division, which you know is the most deployed division 
in the U.S. Army since 9/11 to Afghanistan. Currently the 
division headquarters and members of the 1st Brigade Combat 
Team are operating in Afghanistan with the 2nd Brigade Combat 
Team on schedule to deploy to the region throughout this fall.
    I want to wish our 10th Mountain soldiers a very happy 
Thanksgiving. I know this is not the first Thanksgiving for 
many of them who are away from their friends and family at 
home.
    Given your experience advising military commanders, how can 
we balance the reduction of forces in Afghanistan with the 
necessary force protection measures to ensure that our 
remaining troops that are in-country are protected and able to 
safely conduct their daily operations and missions? I want to 
ensure that we are keeping force protection to the absolute 
highest level.
    Dr. Jones. Force protection is obviously essential, as are 
logistics, and there are other components of that. So I think 
the question, when we talk about numbers, is, as you are 
implying, I think, it is not just the number of 
counterterrorism forces that are striking targets or arresting 
or even training Afghan terrorists--or training Afghan 
commandos to target terrorist organizations like al-Qaida--but 
it is also the force protection of bases that is necessary.
    That may be military police and others to secure bases. On 
any of the bases that I have ever served on, we have also hired 
local Afghans to provide basic protection and in some cases 
contractors as well. So that does need to be added to the mix 
of the force posture we are talking about.
    Ms. Stefanik. And then in your written statement you 
mentioned a troop drawdown's impact on our ability to conduct 
the train, advise, and assist mission and conduct CT missions 
and operations and collect intelligence.
    What overall does this mean for the resurgence and 
strengthening of terror groups in Afghanistan, particularly in 
reference to potential difficulties we may have when it comes 
to conducting CT? Does this put us in a similar situation that 
we faced in Iraq in 2011 to 2014 in which we will be back in 
Afghanistan down the road to combat stronger, more organized 
terrorist groups that threaten us?
    Dr. Jones. Well, I don't think it entirely puts us back to 
2011 where we pulled all forces out, but we are now taking a 
risk by going down to 2,500.
    What it means, I think, is that that force posture may be 
enough to conduct strikes against terrorists, but we are going 
to have to move a range of our train, advise, and assist 
trainers from the kandak level, from the Afghan Air Force, up 
to the Ministry of Defense and Ministry of Interior level.
    So what we lose is the ability to train Afghans at the 
operational and tactical level, actually where the fight is 
happening. So that means it is a risk to the state of the war. 
And I think that is where we are at right now and that is where 
we are going to accept some risk.
    Ms. Stefanik. Thank you. Yield back.
    The Chairman. Thank you.
    Mr. Gallego is recognized for 5 minutes.
    Mr. Gallego. Thank you, Mr. Chairman.
    I defer to my colleague, Representative Crow.
    Mr. Crow. Thank you, Mr. Gallego, for yielding your time to 
me.
    Everyone here today has spoken about the need to address 
the threat, and I think there is universal agreement that there 
is indeed a threat in Afghanistan. But the fact of the matter 
is we face a lot of threats, we have a lot of adversaries, and 
we do so with limited resources.
    So because we have to take a holistic view and make 
decisions about those limited resources, there are ultimately 
tradeoffs and opportunity costs to that.
    I went to war after 9/11 three times, twice in Afghanistan, 
and fought the Taliban, because I do take seriously our charge 
to keep our country safe and our responsibility to respond to 
those threats.
    But I also know that we face domestic terror threats that 
we haven't adequately addressed, that over a thousand Americans 
a day are dying of COVID-19 because we are not adequately 
addressing that, over 50,000 Americans a year are dying by 
opioids because we are not adequately addressing that, and over 
20 veterans a day are dying because we are not addressing that 
threat and that need as well.
    But this isn't a philosophical discussion about the value 
that we place on different threats. It is a practical one. And 
what I believe is that we do have to draw down for the reasons 
that many of my colleagues have articulated before, but there 
is a right way to do it and there is a wrong way to do it.
    From my perspective, the administration's process has been 
largely a black box. It has changed and we don't have 
sufficient information and we can't have a discussion as a body 
here and as an American public about the process and the 
relative risks.
    So from your perspective, very briefly, starting with Dr. 
Jones, since you are here, going to Ambassador Crocker, and 
then to Mr. Biddle, do you believe that America would benefit 
from a more transparent process like the one that we outlined 
in the National Defense Authorization Act, a provision that 
would require broader engagement with Congress and our partners 
so we better understand those threats and the proper way to 
draw down?
    Dr. Jones. Yes, very briefly, I think it is always better 
to have a transparent process where we have any administration 
outline what its objectives are in places like Afghanistan and 
what is the force posture necessary to meet those objectives, 
as well as the diplomatic presence, intelligence presence, and 
others, yes.
    Mr. Crow. Thank you.
    Ambassador Crocker.
    Ambassador Crocker. Thank you.
    We are a great democracy, and the greatness of our 
democracy depends on the transparency of an administration. The 
American people will sacrifice a lot and deal with a lot of 
hardship if they understand why they are being asked to make 
these sacrifices.
    So I would hope that there will be an effort in the coming 
months for the new administration to articulate precisely that. 
What are the stakes in Afghanistan? Why are we there?
    I think those are questions that we can answer and have 
answered in this committee, but the case needs to be made and 
made repeatedly.
    Mr. Crow. And very briefly, Mr. Biddle, because I do have 
one more question, but love your thoughts on that first 
question.
    Dr. Biddle. Transparency is key. A democracy waging a war 
is engaging in policies that take lives in the name of the 
state and spend billions of dollars of public treasury. We owe 
it to the public to debate this publicly, to build a consensus 
behind whatever policy we adopt. And I commend the committee 
for its role in furthering the debate with today's hearings.
    Mr. Crow. Thank you.
    My last question is, America is strong just not because of 
our power and our military, but because we have friends. We 
have friend and allies. That has an outsized impact not just on 
Afghanistan but in every way that we engage.
    And I am extremely concerned that there hasn't been 
consultation with our NATO partners. Thirty-eight partners and 
allies have committed to the U.S.-led NATO mission, and they, 
by my estimation, have not been given adequate information 
about what we are trying to do.
    In fact, as you mentioned, Dr. Jones, Article 5 has only 
been invoked after 9/11, and there was always an estimation 
that we would go in together and come out together.
    So very briefly, each of you, 15 seconds on the impact on 
the NATO alliance of not adequately consulting with them.
    Dr. Jones. Well, I think it makes it hard--not consulting 
with allies makes it harder for them to make a case to their 
own populations to keep a presence in Afghanistan that we need 
because it provides additional value to us.
    Mr. Crow. Thank you.
    Ambassador Crocker.
    Ambassador Crocker. Clearly we have got to do a better job 
of communicating with our strategic partners in NATO. We have 
seen the statement of the Secretary General of NATO this past 
week after the President's announcement, expressing his 
distress over where we are going and how we are doing it.
    So, yes, NATO has stood up for us in Afghanistan. They are 
with us there now. They need to hear from us that we will stay 
the course.
    Mr. Crow. Thank you. Mr. Biddle, very briefly?
    Dr. Biddle. Our alliance system is one of the great grand 
strategic advantages of the United States relative to our 
primary competitors in China and Russia, neither of whom enjoys 
the alliance system that the United States enjoys. Respect for 
our allies enables us to take advantage of the things that this 
alliance system brings to the table. We should further that 
critical grand strategic advantage by taking our allies 
seriously and consulting them to the greatest degree possible.
    Mr. Crow. Thank you.
    Thank you again to Mr. Gallego for yielding me his time.
    I yield back, Mr. Chairman.
    Mrs. Davis [presiding]. Thank you, Mr. Crow.
    Mr. Gaetz is next for 5 minutes.
    Mr. Gaetz. Thank you, Madam Chair.
    And not only am I a minority member of this committee, I 
hold a minority view on the war in Afghanistan on the 
committee. I am against it.
    Based on even the words of our own witnesses today, the 
corruption in Afghanistan is unsolvable, the war is unwinnable, 
and the strategy is indecipherable. It is not a criticism of 
the current administration. These are conditions that have been 
present for the last 19 years as we have traded the same 
villages back and forth with the Taliban.
    I listened intently as Dr. Biddle said we are leaving and 
we are getting nothing. What we are getting is out.
    To me the biggest loser in Afghanistan is the nation that 
stays the longest.
    Now, as I read some of the prepared testimony of our 
witnesses, particularly Dr. Biddle, here is how the argument 
seems to go. Twenty-five hundred troops really has no military 
value. There is no technical capability with 2,500 troops that 
we have that is going to fundamentally win this war. We have 
had 100,000 troops there and we couldn't win it and now we 
think with 2,500 that is what is going to, like, preserve these 
alliances and ensure our allies that we are really there with 
sufficient grit.
    But the purpose of these 2,500 troops is politics, that it 
is a political feature of the war in Afghanistan that if we 
leave 2,500 troops there we will get more leverage, and that if 
we engage in accelerated drawdowns, well, the Afghans, the 
Taliban in particular, will see that this is sort of a war of 
attrition that the United States is going to lose. And so they 
are just going to stick there and maintain a level of violence 
that allows them to potentially recapture their political 
power.
    But the obvious question is, if we know that the 2,500 
troops we are leaving there don't have military value and are 
there as a political statement, probably the enemy knows that, 
too. Probably they understand the very dynamics that our 
witnesses have laid out through their testimony today that this 
only ends one way: with us leaving, with the Taliban getting 
more power, and with conditions in Afghanistan in pretty rough 
shape going forward, as they have been for the last two 
decades, as they were for a substantial period of time before 
that.
    I am grateful that in the Trump administration we have 
highlighted our near-peer adversaries as the requisite focus 
for our work. I am glad that we don't believe we have to chase 
every potential terrorist into every potential cave in 
``Whereveristan'' so we can thump our chests and say that we 
are being tough with a global counterterrorism mission.
    It is my sincere hope that we not only reduce our troop 
levels to 2,500, but that we reduce them to zero, that we leave 
Afghanistan. This has been the longest war in our Nation's 
history. Our country is weary of it, even if the Armed Services 
Committee is not.
    And I yield back.
    The Chairman [presiding]. Mr. Moulton, you are recognized 
for 5 minutes.
    Mr. Moulton. Thank you, Mr. Chairman.
    You know, having served four tours in Iraq, there is no one 
who wants to bring the troops home more. But if there is one 
lesson we have learned after the last 20 years, it is harder to 
get out of these wars than to get in. And we leaving willy-
nilly, without any plan, without any leverage, is clearly the 
wrong thing to do according to every witness, Republican and 
Democrat, before this committee.
    I want to end the war in Afghanistan, too, but I want to 
end it responsibly. And more importantly, I want to bring the 
troops home for good. I do not want to repeat the mistake we 
made in Iraq where we withdrew so quickly, without sufficient 
plans, that we had to turn around and go back in.
    And although I think all of our witnesses also agree that 
we are not going to, quote, unquote, win the war in 
Afghanistan--frankly, that is not on the table and hasn't been 
for a long time now--there are very devastating ways that we 
could lose--most of all, of course, a repeat of 9/11.
    Ambassador Crocker, I would like to ask you a question 
about another way that we could lose, which is that there are 
two Americans that we suspect are being held hostage in 
Afghanistan, in Pakistan, by groups with close ties to the 
Taliban: Paul Overby, an author from Massachusetts, and Mark 
Frerichs, a Navy veteran and defense contractor.
    As this administration proceeds with plans to withdraw 
troops early and without any concessions from the Taliban, 
there is no indication that Mr. Overby or Mr. Frerichs' release 
and safe return are being considered in diplomatic negotiations 
or required as a precondition for an accelerated drawdown.
    In your experience and opinion, what are important factors 
to consider in securing the release of these two Americans? And 
if we withdraw troops earlier than anticipated, what other 
potential leverage do we have to ensure that Mr. Overby and Mr. 
Frerichs are returned safely to their families?
    Ambassador Crocker. Thank you, Congressman.
    As with these sad cases, we, I think, see another 
illustration of what we are giving up by giving up our 
leverage, and we are certainly doing that by unilateral troop 
withdrawals that require nothing of the Taliban. They have no 
incentive to cooperate at any scale or on any level. And that 
would impact both from the top strategic level of support for 
the government and its survivability in Afghanistan and it goes 
down to this level as well.
    It is pretty hard to get something if you have given up 
your leverage. There is no incentive for the Taliban, who we 
presume are holding these two Americans, to take any steps to 
release them.
    So, again, if you are programmed for defeat, which we seem 
to be, you have no leverage and no expectation that we will 
gain anything, including a release of these two Americans.
    Mr. Moulton. Well, certainly a principle that I understood 
in the Marine Corps is we don't leave Americans behind. And I 
hope that the purported ``art of the deal,'' who should know a 
little bit about negotiation, is thinking about these two 
Americans, as well as our troops, as we figure out the best way 
forward.
    Mr. Ambassador, I would like to ask you about the 
importance of the Special Immigrant Visa program that you 
stressed in your opening statement. I was proud to support an 
extension of the Afghan Special Immigrant Visa program in the 
House version of the fiscal year 2021 NDAA [National Defense 
Authorization Act]. We recognized the critical importance of 
the program for U.S. Government operations in Afghanistan and 
also for future operations where young troops, like I was, are 
going to have to convince allies overseas to trust us enough to 
put their lives on the line to support us.
    So can you just tell us why the program is so critical in 
your eyes and the effect that the success of the program in 
Afghanistan will have on future national security operations 
overseas?
    Ambassador Crocker. I think that is exactly right, 
Congressman. As I noted, there is a backlog of some 18,000 
cases in Afghanistan. The sad reality is probably today more 
interpreters and their family members are getting killed in 
Afghanistan because of their service to us than are getting 
Special Immigrant Visas to make good on our pledge to them that 
we would take care of them.
    And you are quite right, this has implications far beyond 
the borders of Afghanistan. The world is watching. The nature 
of war has changed. The wars of the future are going to look a 
little like this in the sense that we have got to have people 
from the community, from the nation, working with us, otherwise 
we are blind out there. And you know what that is like from 
your extraordinary service in Iraq.
    Mr. Moulton. Thank you, Mr. Ambassador.
    Madam Chairman, I yield back.
    Mrs. Davis [presiding]. Thank you very much.
    Mr. Keating, you have 5 minutes.
    Mr. Keating. Sorry. I couldn't hear that, Madam Chairman. 
Madam Chairman, who did you call on?
    Mrs. Davis. Mr. Keating. Are you ready? You have 5 minutes.
    Mr. Keating. Yes, I am. I couldn't hear my name.
    Mrs. Davis. Oh, sorry.
    Mr. Keating. Thank you, Madam Chairman.
    Mrs. Davis. Thank you.
    Mr. Keating. Very briefly, there is not a broad consensus 
today on exactly what we should do in terms of our troops in 
Afghanistan and their deployment. But there is a broad 
consensus on the fact that the way the administration is 
proposing this drawdown is precipitous and it is disagreed 
with, I think, by virtually everyone that has spoken today.
    It is pretty clear that one of the reasons is it undercuts 
our--the so-called peace plan, you know, where there is a 
political date that was put on this, Inauguration Day, for the 
drawdown.
    It also is one more example, a large one, of our inability 
to coordinate and respect our allies who have troops on the 
ground.
    This falls on the heels of dealing with the pullout after 
discussions with President Erdogan in Syria so quickly, without 
notice, adequate notice certainly, hours, I heard in 
questioning, to our allies about that decision; pullouts from 
Germany of the troops there, another political decision on the 
heels of the G7 pullout by the Chancellor of Germany; and also 
the political switching of funds from things like the European 
Defense Initiative--Deterrence Initiative.
    So these abound, let alone our inability to consult with 
them on--our allies on INF [Intermediate-Range Nuclear Forces] 
Treaty or the JCPOA [Joint Comprehensive Plan of Action] 
decisions.
    I mean, this is a critical problem. I was in discussions 
just in the last few days with our allies, private discussions, 
and their concern for the way that this has been decided, their 
lack of consultation, is profound.
    But I want to just quickly go on a couple of other issues 
that we haven't dealt with directly, I don't think.
    The danger of this pullout and the timing, the contracted 
nature of it, with troop safety, this isn't the longer term 
issue of force protection, but actually moving our troops 
safely out in such a tight timeframe.
    Also, the protection of our military assets, billions of 
dollars of assets that could fall into terrorist hands as a 
result of this artificial timeframe.
    And also, the third thing, justification because of our 
situation with Pakistan, a very complicated issue. But how 
exactly can troop deployment there help us with Pakistan as 
opposed to our increasing inability to deal with them directly?
    So those are the issues, the troop safety short term, asset 
protection short term, and exactly how this is going to benefit 
our position strategically with problems in Pakistan.
    I will throw it open probably first to Dr. Jones.
    Dr. Jones. Thank you very much for the questions.
    On the danger of pullout and the safety issue, you do raise 
very important questions. I think the Taliban has shown over 
the last couple of months since the February deal that it is 
not--it has significantly decreased, in fact it has generally 
stopped targeting U.S. forces in Afghanistan. It is targeting 
Afghan forces, but not U.S.
    So I would not expect the Taliban to take advantage of this 
opportunity. But as we have already noted during this committee 
hearing, we have other groups, including the Islamic State 
Khorasan Province, that continue to conduct attacks.
    So I think there are issues related to the safe withdrawal 
in spite or in the face of groups like the Islamic State that 
may conduct attacks.
    I do think there also has to be very serious questions 
about what are we doing with American assets, infrastructure in 
the country. The U.S. has poured large amounts of money. What 
is going to happen? Who is going to get it, including who is 
going to be in the bases, if the U.S. is also downsizing.
    On Pakistan, just very briefly, I think Pakistan almost 
certainly believes this is a win for it. Its ally, the Taliban, 
is likely to advance with a continuing U.S. drawdown. So I see 
this as largely viewed positively by Islamabad.
    Mr. Keating. Thank you.
    I have got 30 seconds left. I will yield back so my 
colleagues can ask questions. Thank you.
    Mrs. Davis. Thank you very much.
    Mr. Carbajal. Mr. Carbajal, you have got 5 minutes.
    Mr. Carbajal. Thank you. Thank you, Madam Chair.
    Ambassador Crocker, we have been in Afghanistan for almost 
two decades. While I am concerned with the administration's 
recent unilateral announcement to draw down U.S. troops to 
2,500 in January, we cannot be in an open-ended war.
    How can the U.S. better assist diplomatically and 
militarily in addressing the main barriers that are inhibiting 
an intra-Afghan agreement? And I know you briefly have touched 
on this. But if you could elaborate, I would greatly appreciate 
it.
    Ambassador Crocker. Thank you, Congressman. Your question 
was broken up with my technical problems, but I think I have 
the gist of it.
    Again, it is an issue of strategic patience, of a long-term 
view. The Taliban certainly have it. They have spent all those 
years in exile rather than give up their al-Qaida colleagues. 
They know they can--they believe they can outwait us, and the 
course of these so-called peace talks would, I think, vindicate 
that.
    I know about being tired, Congressman. I spent 7 out of the 
first 11 years after 9/11 in Pakistan, Afghanistan, and Iraq. I 
was ambassador to all three. So I get that, too, I get it, that 
the American people are tired.
    But getting tired and giving up need to be two different 
things, and I just pray that it is not too late to reverse the 
disastrous course we are on right now. That is simply running 
up the white flag and we will pay for it down the line, not 
just in Afghanistan.
    Mr. Carbajal. Ambassador, if you could just touch on what 
concrete steps we could do to create that intra-agreement.
    Ambassador Crocker. Well, first, we need to make it clear 
that we are not neutral in this matter, that the Afghan 
Government has our solid backing, that we are not going to 
abandon an ally to the Taliban. That would be the first and 
critical, I think, concrete thing we can do.
    And then from that making it clear that anything we do 
further is going to be strictly all based on conditions. We 
will maintain our presence as long as the government wants and 
as long as we need to, to defend our own national security 
interests. We need, in short, to demonstrate some strategic 
patience and we need to do it now.
    Mr. Carbajal. Thank you, Ambassador.
    Dr. Jones, as is well known, part of the U.S.-Taliban deal 
negotiated by the Trump administration was the Taliban's 
commitment to prevent al-Qaida and other terrorist groups from 
using Afghan soil to threaten the U.S. or its allies, including 
by preventing recruiting, training, and fundraising. There is a 
grave concern and apprehension that the Taliban are not and 
will not uphold that commitment.
    Looking forward, how do we measure the extent to which the 
Taliban fulfills this part of the agreement?
    Dr. Jones. It is a very good question, Congressman. I think 
the answer, in part, hinges on our intelligence collection and 
analysis capabilities. To what degree do we continue to see 
meetings, that is from human intelligence and signals 
intelligence, meetings between the Taliban and al-Qaida? To 
what degree do we see al-Qaida continue to operate in areas 
where there are Taliban commanders? And to what degree do we 
see al-Qaida and other camps operating in Afghanistan or along 
the Afghanistan-Pakistan border?
    There are obviously a range of ways, including through 
geospatial intelligence, that we can monitor that. It does 
become harder the more we drop in forces, though. It makes it 
more difficult for NSA and CIA to put their important units in 
collection sites, because they use the military for those. So 
the more we withdraw, the harder it becomes to see that.
    Mr. Carbajal. Thank you.
    I have limited time. Dr. Biddle, in your testimony you 
discuss how the Afghan National Defense and the Security Forces 
need to be professionalized to root out corruption. What can 
the United States do and our allies to support these efforts?
    Dr. Biddle. There is a limited amount that we can do 
actually, because the corruption and cronyism we see is so 
deeply rooted in fundamental political features of the Afghan 
governing system.
    What we can do, however, is to reach a low ceiling. And I 
think the key to that is conditionality in the aid that we 
provide. We need to tell the Afghans what we expect in exchange 
for our support that can move their incentives, albeit 
gradually, in the direction of professionalization. We should 
do that, but we should also be realistic about how much we can 
accomplish on that score.
    Mr. Carbajal. Thank you very much. I am out of time.
    I yield back.
    Mrs. Davis. Thank you.
    Mr. Kim, you have 5 minutes.
    Mr. Kim. Thank you.
    Dr. Jones, I am going to start with you. Thank you for 
taking some time to be able to come here.
    And I was reading through an October interview that you 
conducted with now Acting Secretary of Defense Chris Miller 
just I guess in October, and he mentioned three lessons learned 
in the CT fight. One is that we have to maintain pressure on 
the terrorist organizations so that they cannot create 
sanctuaries. Number two, that you don't let states fail. And 
then three, bad policies do not get better with age.
    And I wanted to just kind of think through. With these 
three counterterrorism lessons in mind, I wanted to get your 
reflections upon now the decision that he is taking part in 
with regards to Afghanistan, what your thoughts are on each of 
those three levels and whether or not those conditions have 
been met in Afghanistan.
    Dr. Jones. Well, let me begin with the importance of 
maintaining pressure. I think the 2,500 does allow us to 
continue to pressure al-Qaida and some terrorist groups, 
including the Islamic State, in Afghanistan. So I do think a 
complete withdrawal would have eliminated our ability to 
maintain pressure against terrorist organizations. Having some 
special operations forces and some aircraft does allow us to 
keep pressure.
    But I do think going down to the levels that we are does 
cause us to risk the broader counterinsurgency campaign. So I 
think we are taking risk. I am not sure I would have 
recommended that, to go down to 2,500. But I do think we still 
can maintain some pressure with the size force we have.
    I don't think we want to let Afghanistan fail. And, again, 
part of the issue is not just the military footprint; part of 
it is also the aid that we need to provide. And one of the 
things that I recommended, Mr. Kim, in my testimony, in my 
written testimony, was also to make it very clear to the Afghan 
Government that we are going to provide sustained assistance to 
that government, like we do in other countries, and that we 
would be a supporting partner in the next several years.
    So I think the issue is not to focus just on military 
forces but, what are we doing in terms of State Department and 
U.S. Agency for International Development assistance? What are 
we doing on the intelligence aid side? That stuff has not been 
clear. So I would actually like to hear more clarity on what 
non-military types of assistance are happening.
    Mr. Kim. Well, absolutely, and as would I. And as a former 
State Department official that worked in Afghanistan about 10 
years ago--and then, also, I visited Afghanistan with a number 
of my colleagues in a bipartisan group a year ago--these are 
the exact same questions that were heard, which is: What is 
that comprehensive strategy? What is the actual way in which we 
work in this way in a civ-mil fashion here.
    And I wanted to turn to Ambassador Crocker.
    Ambassador, you were the Ambassador in Afghanistan when I 
was there in 2011, and I always appreciated your leadership out 
there.
    And I wanted to focus in on what you said about NATO. You 
were talking about how NATO is coming up with a different 
approach. They have different opinions there. I wanted to ask 
you if you could give us a little bit more detail into any 
reflections you have, any communication you have with NATO 
partners or other countries about how they are seeing the 
situation. And why is it that they seem to have a longer 
horizon and approach to this?
    And, also, just conclude: What is your assessment of the 
state of the NATO alliance and thoughts there in terms of how 
we need to repair?
    Ambassador Crocker. Thank you. Thank you, Congressman.
    NATO made it clear during the time I was there--and I do 
remember your visit. Thank you for making that effort. It is so 
important to come out and see things on the ground for 
yourself, as you did.
    Our NATO allies, as you know, stood up for us on Article 5. 
I have been pleasantly surprised of their willingness to make 
the long-term commitment they have in Afghanistan. They are 
ready to stay as long as we are staying.
    But we would delude ourselves utterly to think they are 
going to stay if we are going. And I think that is the hinge 
point we are at right now after the President's drawdown 
decision that did not involve consultations with NATO.
    I believe very strongly that the NATO alliance is critical 
for global security as well as America's security. We have all 
had frustrations with NATO, both in terms of financial 
commitments and capabilities. Here is one arena where they are 
ready to make a stand----
    Mr. Kim. Ambassador, unfortunately, my time has expired 
here, so I am going to have to yield back to the chairman, but 
thank you for your assessments here.
    The Chairman. Thank you very much.
    Ms. Horn is recognized for 5 minutes.
    Ms. Horn. I will yield back my time. I have just walked in. 
Thank you, Chairman.
    The Chairman. Okay. At this point, I don't think we have 
anyone else seeking time.
    I have one last question for Ambassador Crocker, and I 
think it is sort of the crux of the problem. And, certainly, we 
understand the risks, and they have been very well explained, 
of what can happen in Afghanistan. And, you know, those risks 
go up, to some extent, if we aren't present, trying to contain 
them.
    But when you talked about--and this is, you know, a very 
long-held belief by many people, that, after the Soviets were 
driven out of Afghanistan, our decision to not stay engaged and 
the impact of that--you know a lot more about Afghanistan than 
I do. I have been there eight or nine times but not for any 
length and certainly not in the depth that you have.
    But if you were to take me, you know, back to that moment, 
and then, you know, knowing what we know now, I just don't 
think us staying would have solved the problem. And I think 
that is what a lot of people are, you know, wrestling with, 
is----
    [Audio interruption.]
    The Chairman. I am sorry. Ambassador Crocker, are you 
hearing me okay?
    Staff. He is having issues. We will work on that.
    The Chairman. Yeah. I will take that as a ``no.''
    So I guess we have Dr. Jones and Dr. Biddle here, if you 
could answer this question.
    My point is--and we have heard it described. And I forget, 
I think it was Dr. Jones who was making the points about, you 
have got all the warlords, and if the government gets too 
powerful, the warlords get upset and you have to appease them. 
You certainly have got the drug trade. You have got extremists. 
Everyone in Afghanistan owns 10 guns. And after the Soviets 
came in, it really blew up the existing government. You had the 
funding of the madrasas that came out of Saudi Arabia into 
Pakistan, which radicalized a large portion of the population.
    Can we honestly say that there was something we could have 
done in 1989 that would have changed that? I think that is what 
concerns a lot of people, is, here we are saying, ``Oh, there 
is a huge problem here, and if we show up, we will solve it.'' 
That just doesn't seem to play out. There are certain things 
that U.S. military in foreign countries just can't come in and 
solve.
    And the idea that, you know, ``Gosh, if we leave, 
everything is going to go to hell''--it is an enormous cost, 
certainly, you know, in lives, in the risk of lives, in the 
disruption of lives of American service members and others who 
serve there. But it is also a global cost, in terms of our 
credibility and other--while we are doing that, what else can't 
we be doing? All right.
    And, again, you know, we have got U.S. troops killing 
Afghans, all right? There is going to be a certain amount of 
resentment amongst the Afghan people for that.
    So, I guess, how can you answer the question of, are we as 
Americans and the military really able to solve these 
incredibly complex problems that exist in Afghanistan? Because 
I think most people's impression is, that is the folly, is 
thinking that, somehow, oh, if we were just there in greater 
numbers and if we were just there a little bit smarter, we 
could achieve some sort of peace deal.
    So I don't know what the connectivity stuff is that is 
going on here, so, Dr. Jones, you are sitting in front of me. I 
am going to let you take a stab at that.
    Dr. Jones. Very good questions. And I do think it is 
important to look at the history of the country, including the 
1980s. I would say, the U.S. position today is very different 
than what it was in the 1980s, where we were actually in 
Pakistan--we were not in Afghanistan--where we were providing 
assistance to the Mujahedeen. So I don't----
    The Chairman. But what I am really talking about--actually, 
sir, I garbled that because I got confused in terms of what was 
going on with the connectivity there. I am talking about when 
it was done. And that is, you know, Charlie Wilson's war. That 
was the great lament of it. Gosh, you know, we pulled out and 
everything went to hell; you know, if only we had gone in, it 
would have been fixed. And that is what I don't believe, to be 
honest with you.
    Dr. Jones. Well, I would take the one lesson that we did 
not do that we could have done, is kept a close intelligence 
and probably a special operations presence embedded with 
Northern Alliance forces which were still surviving at the end 
of the 1990s. And we could have--and I think the 9/11 
Commission report highlights this--we could have conducted 
attacks against bin Laden at that point.
    We did not pull the trigger. The Clinton administration had 
bin Laden within its sights. So I think we could--having a 
presence there would have allowed us to conduct some action. I 
think----
    The Chairman. Just on that one quick point, though, there 
are risks in doing what you just described. Okay? Because that 
is the risk of inaction. Okay?
    We have taken actions before. You know, we bombed that, you 
know, pharmaceutical plant in Sudan, which, you know, blew up 
in our face. You know, we did launch a bunch of cruise missiles 
in to try to take out bin Laden.
    So I think there is a tendency to say ``inaction, bad; 
action, good'' or ``action, bad''--I mean, it is more of a 
balance depending on the circumstances, and there are risks 
either way.
    Dr. Jones. Yes, I think there are risks either way. And I 
think that is where we are at today. Do we take the risk of 
leaving and seeing what happens afterwards? Or can we accept 
some small military presence, some aid, and keep the Afghan 
Government and the Taliban talking and prevent the overthrow, 
at least for the next couple years, and see where this goes? 
And that is what my advice is to consider.
    The Chairman. Understood.
    And, you know, just to conclude, I mean, I believe that 
there is still a transnational terrorist threat. And when we 
talk about the shift to great power competition, ``we need to 
get out of this stuff'' and everything, I know the challenges 
that are presented by Russia and China, but I think it is 
important that we all keep in mind that there is still only one 
group of people that gets up every morning hoping to kill as 
many Americans and Westerners as they possibly can. And the 
only thing that is stopping them is the ability to do it; it is 
not a lack of will. And that is al-Qaida and ISIS and various 
affiliated groups all over the world.
    We will have to do something, in my view, to contain that 
threat. And I think those who wish it away and say, ``Gosh, if 
we just weren't fighting them, they would just stop hating 
us,'' that is not going to work. Something needs to be done to 
contain that threat.
    And I think what the American people are trying to figure 
out is, how can we do that in a way that is less costly and 
places fewer troops at risk? And I think that is what we have 
to work towards.
    This is horribly unfair, but, believe it or not, Mac, we 
are wrapping up. And----
    Mr. Thornberry. Well, Mr. Chairman, I did have one----
    The Chairman. I say that because Mr. Thornberry just walked 
back into the room, by the way.
    Mr. Thornberry, you have the floor. Go ahead.
    Mr. Thornberry. I just had a brief question based on some 
earlier conversation.
    Ms. Stefanik was asking you, Dr. Jones, about force 
protection. And I know that Dr. Biddle had talked about two 
sources of leverage. One is the presence of our troops; the 
other is our financial commitment.
    The concern has been expressed to me that, if we 
unilaterally make significant cuts to our financial commitment, 
it could endanger our forces who are there in some way, because 
that leverage, that incentive would be reduced. Do you have an 
opinion about that?
    Dr. Jones. Yeah. I think the answer to that depends, Mr. 
Thornberry, on what types of assistance were cut. But I 
certainly think training to local forces, particularly if it 
starts to trigger some animosity--we have seen attacks against 
U.S. forces from Afghans as the situation deteriorates--that 
would be a concern.
    But I also think, are we cutting key resources that protect 
our forces on the bases where we operate? And I think that 
needs to be looked at very closely.
    Mr. Thornberry. Yeah. Well, whatever the number--25, 45--it 
is not many folks. And we depend upon the Afghans to protect 
our folks, by and large. And it just seems to me to be a key 
consideration.
    Finally, Mr. Chairman, I would just say, I really 
appreciate all three witnesses and their testimony and their 
bearing with us today. I think it has been very helpful.
    I yield back.
    The Chairman. Thank you.
    We did have a couple more members who came back in since we 
concluded this. So we will go with Ms. Speier first and then 
Ms. Torres Small. And then we will adjourn.
    Ms. Speier, you are recognized for 5 minutes.
    Ms. Speier. Thank you, Mr. Chairman. Thank you especially 
for this hearing. It has been very insightful.
    To all of the witnesses, extraordinary testimony.
    To Ambassador Crocker, what a lifetime of contributions you 
have made to our country.
    I am not sure if it was you, Ambassador, or someone else, 
but someone said, ``We are going to pay for it if we leave 
abruptly.'' And I would like for someone, whoever said that, to 
define, what does ``paying for it'' mean?
    The Chairman. Ms. Speier.
    Ms. Speier. Yes?
    The Chairman. I am sorry.
    Ambassador Crocker, are you still with us?
    It sounds like we have lost our connection to Ambassador 
Crocker.
    Ms. Speier. Okay.
    So maybe to Dr. Biddle and Dr. Jones. An abrupt 
withdrawal--I mean, we have seen what has happened, certainly, 
in Iraq. I worry about the reinstatement of Sharia law and the 
impacts on women and children. And I worry that we have to 
calibrate what a presence, and a presence that will be 
relevant, is.
    Is 2,500 enough, or do we need 4,000? Can we reinstate the 
other 2,000 after the Biden administration comes into 
operation, if that is where he is inclined to go? If you could 
just kind of, in your own words, kind of answer those two or 
three questions.
    And let's start with you, Dr. Biddle.
    Dr. Biddle. I would personally like to see the withdrawal 
order remanded, and I would like our current troop level to 
remain at least through the beginning of the Biden 
administration, in part for the political issue of bargaining 
leverage and the talks, but in part because our Afghan allies 
do continue to depend especially on the air strikes that the 
U.S. presence provides.
    If we were to totally withdraw--which I think is a 
defensible view if you think the talks are hopeless. But if we 
were to totally withdraw, I think it is very likely that the 
Afghan National Security Forces would break.
    They are taking heavy casualties in combat already. There 
are serious strains on the organization. If we were to leave, 
that would signal them that the future is very negative, and 
the combat motivation of the remaining troops would be affected 
in a very dangerous way by a perception that this is now a 
hopeless enterprise and that, sooner or later, they are looking 
at failure and defeat in the absence of U.S. support.
    I think the signal that would send to the Afghan Security 
Forces is likely to cause them to be unable to sustain the 
stalemate that we now see.
    Ms. Speier. Thank you.
    Dr. Jones.
    Dr. Jones. Yes. I did not make the--or I did not use the 
words ``pay for it,'' but what I would say is that, at the 
moment, we have something close to a military stalemate in 
Afghanistan and a rough balance of power, the Afghan Government 
on the one side, with some support from the U.S. and other NATO 
countries, and on the other, we have the Taliban with some 
support from Pakistan, from Iran, from Russia, and from some 
other outside donors. You break that balance by a complete 
withdrawal, so you shift the balance in favor of the Taliban.
    And I think, as all of us have noted during this hearing, 
that the Taliban continues to have relations with al-Qaida. I 
think it becomes only a matter of time before the Taliban 
starts to overrun major cities in Kandahar, Helmand, Farah, and 
other provinces. And I think then the concern is that we start 
to see----
    [Audio interruption.]
    The Chairman. I apologize for that.
    Ms. Speier, you still have time. Go ahead.
    Ms. Speier. Was that Dr. Jones speaking or Ambassador 
Crocker?
    The Chairman. That was Dr. Jones speaking.
    Ms. Speier. Okay. And I guess Ambassador Crocker cannot 
connect.
    All right. I guess my final question, if I still have time, 
Mr. Chairman, is: Is there anything that hasn't been asked this 
morning that any of you would like to inform us about that we 
should be looking at that maybe has not been discussed?
    The Chairman. I am getting a head shake.
    Dr. Biddle. Well, I----
    The Chairman. And it is going to have to be quick. I 
apologize. Almost out of time. Go ahead.
    Dr. Biddle. I will just take the opportunity then.
    What I would suggest is, this whole exercise tells us that 
it is very important to think of the termination of a war when 
you begin a war. If we engage in any of these kinds of 
interventions in the future, we need from the beginning to 
assume not that the war just ends when you conquer the capital 
but that there is going to be some subsequent process that we 
need to think through in advance.
    If we had understood that in 2001 to 2002 and negotiated 
the Taliban when we had the opportunity and the advantage, 
rather than assuming that we had won the war because the 
capital had fallen, I don't think we would now be in this 
situation.
    The easiest way to prevent the kind of dilemmas we face now 
is to solve them at the beginning. When we get involved and we 
understand what our war aims are and when we accept the idea 
that negotiation is a way to realize our war aims at the 
beginning, it is a better solution than waging a 20-year war 
and then finding yourself with no good options in the end.
    The Chairman. Thank you.
    Ms. Torres Small----
    Ms. Speier. I yield back, Mr. Chairman.
    The Chairman [continuing]. Is recognized for 5 minutes.
    Ms. Torres Small. Thank you, Chairman Smith.
    I wanted follow up on Congressman Kim's question regarding 
the impact that this scaled withdraw would impact on our 
allies.
    So could you just--Dr. Jones, I would love to hear your 
sense about how our allies--what position our allies would be 
put in, both NATO and non-NATO, given this reduction in forces.
    Dr. Jones. Well, I think there were two challenges.
    One is--and I think we saw it with the reaction of the NATO 
Secretary General. They were not given sufficient advance 
warning, so that what it didn't include was a broader U.S., 
NATO, and other forces--what are their objectives, combined 
objectives? What are the force postures, collectively, that 
they need? And how does this affect all of that? So I did not 
see a lot of strategic planning with our allies.
    The second issue is: Remember, there is pressure, and there 
should be pressure, in all of our allies' capitals and among 
their populations with people that are asking, why do we 
still--why do the Germans still have forces? The Italians, the 
British, and others, why do they still have forces in 
Afghanistan?
    So I think the recognition here is, if we want those 
countries to continue to train and to continue to engage in 
combat operations, we have to treat them as allies, plan with 
them as allies. And that is the only way, I think, we are able 
to keep it. Because I think they actually--they provide 
advantages. They have forces on the ground. They can train 
Afghan forces. And I think that, at the end of the day, this 
shows that it is not just us.
    Ms. Torres Small. Earlier in discussions, we talked about 
the potential impact that the removal of troops or the drawdown 
of troops would have on negotiations for peace. And I wanted to 
link those two discussions together--the need for us to 
strategically plan with our allies and the potential domino 
effect that our reduction of troops could have on other 
presence, our allies' presence, on the ground and how that 
might impact negotiations, especially given changing 
relationships, perhaps heightened tensions, with our allies.
    Dr. Jones. Is that directed at me?
    Ms. Torres Small. Yes. Sorry.
    Dr. Jones. Okay. I think it is a very good question.
    I think when you look at this from the Taliban's 
perspective, they agreed to start negotiations in September. 
Those negotiations have gone nowhere. They have dragged their 
feet. And now they have--they perceive they have been rewarded 
for dragging their feet by further U.S. drawdown that was not 
connected in any way to progress on the peace settlement.
    So I think the issue here is, if we want an actual peace 
agreement, then no one can be rewarded for this.
    Ms. Torres Small. Just specifically on the point of a 
relationship with NATO and non-NATO allies, is there anything 
more you would say in terms of that impact on potential 
collaboration and strategy, as you mentioned, for the peace 
negotiations?
    Dr. Jones. Well, I think the addition of international 
forces is also an important bargaining chip in the 
negotiations. It is not just U.S. forces leaving, as we have 
talked about; it is also other international forces leaving. 
That is an important note here.
    Ms. Torres Small. Thank you.
    And I don't know if we still have Ambassador Crocker, but 
if he wanted to weigh in on this, I would appreciate it.
    Ambassador Crocker. Thank you. I think I am reconnected.
    The Chairman. You are.
    Ambassador Crocker. Ultimately, this is not about force 
levels. It is about American resolve. And that resolve has 
been, very sadly, wanting, going all the way back to the 
inception of these talks that excluded the Afghan Government. 
That is the decision we need to make as a country.
    All of us, in different ways, all three of us, have said we 
are in a very dangerous situation right now and that further 
unlinked troop withdrawal is going to make it worse. Our great 
strength as a nation has been based on many things. One of them 
are our alliances. NATO is crucial.
    We have an opportunity here. We need seize it. But, first, 
we need to stop [inaudible] literally. And, second, we have to 
have a conversation among ourselves and with our allies. This 
is not a lost cause if we demonstrate that resolve.
    Ms. Torres Small. Thank you.
    I yield the remainder of my time.
    The Chairman. Thank you.
    We do have one more member who has returned, and then that 
is it, no matter who comes back.
    Ms. Houlahan, you will have the last 5 minutes of the 
hearing. You are up.
    Ms. Houlahan. Thank you.
    And I hope that you all can hear me.
    My question is for Dr. Biddle.
    The United States has committed to a conditions-based 
drawdown, as we have just heard from several people asking 
questions. And your written testimony says that the 
expectations on the part of the Afghanis for U.S. engagement 
were central to the ability to negotiate an acceptable 
settlement.
    I was just wondering, in your view, what would moving away 
from our publicly touted conditions-based approach, especially 
on the eve of a transition of government here in the United 
States, signal to the Afghan people? And what does it mean for 
our ability to credibly facilitate inter-Afghan negotiations in 
the future?
    Dr. Biddle. I think, during the Trump administration, the 
view of many Afghans was that we were simply headed out 
regardless of what happened; the conditions-based language 
wasn't to be taken seriously and wasn't to be trusted.
    And that, in turn, made it very, very difficult for the 
Afghan Government to persuade members of its own political 
coalition that they should accept compromises in order to get a 
deal, because it looked like the half-life of the entire Afghan 
Government was going to be very, very limited. And, hence, 
asking power brokers within the Afghan elite at large to make 
near-term sacrifices for a long-term better Afghanistan, when 
total U.S. cut-and-run looked like it was going to create a 
long term in Afghanistan measured in minutes, months, years at 
most, didn't look like a good bargain. That, in turn, made it 
very, very difficult for them to organize any kind of 
consistent bargaining position vis-a-vis the Taliban.
    Now, an incoming Biden administration is going to have an 
opportunity to make its own decisions about how seriously it 
takes these talks, to what degree they are prepared to use the 
leverage we have remaining to bring about successful talks.
    Among the many difficulties in these talks is that there 
are so many parties. I mean, we tend to think of it as the 
Taliban and the U.S. It is actually the Taliban and the Afghan 
Government, but the Afghan Government is not a unified actor. 
And in terms of the Afghan Government's ability to get a 
consistent position among all of the different actors 
internally to its side of these talks, some degree of 
understood consistency and U.S. support for the Afghan 
Government is critical for enabling the Afghan leadership to 
persuade elements of its own political coalition that it makes 
sense for them to be in this for the long haul.
    If we signal to them that we are not in it for the long 
haul, the stability of their own government goes way down, the 
ability of that unstable government to command enough loyalty 
and cooperation from its own power brokers to make concessions 
in compromise talks goes way down.
    These are issues that the Biden administration now has an 
opportunity to recast. I hope they will take that opportunity.
    Ms. Houlahan. My next question is somewhat related to that. 
Assuming that the Biden administration gets that opportunity, 
what kind of conditions, if any, do you think need to be met 
before the U.S. would consider reducing or withdrawing troops 
further, assuming that it were a Biden administration or even 
what remains of this administration?
    Dr. Biddle. I would like to see further withdrawals 
conditioned on an end to the war. I mean, if that is our 
strategy for getting out of this with an acceptable outcome, 
the way we use our resources needs to be tied to that outcome.
    If an end to the war is what we want--and that is what we 
should want--then we should be prepared to leave the small 
number of troops that are there now--I mean, this isn't the 
almost 100,000-soldier presence of 2011 anymore. This is a 
rather small footprint to begin with. I think we should be 
prepared to say we are going to leave it there until we get 
what we want, which is an end to the war through a negotiated 
settlement.
    Ms. Houlahan. And that actually is--you must be kind of 
reading my mind. My next question is, what kind of troops 
should remain, and what kind of troops would you recommend that 
we remain in terms of personnel? And I have about a minute 
left, sir.
    Dr. Biddle. I would recommend leaving every single American 
soldier who is there now there until the war ends.
    Now, in terms of the configuration of what is there, I 
suspect it is pretty close to optimized now, because I have 
confidence in General Miller and his ability to design his 
force structure to be optimal with respect to the cap that he 
is given.
    In terms of the military capabilities that go along with 
the political role of driving us towards a settlement, the 
critical military capability at the moment is air strikes. Our 
ability to do air strikes effectively rests, in turn, on how 
many bases we can maintain in the country and how much 
cooperation we can get with Afghan corps headquarters to enable 
us to know where Afghan forces are, what they are doing, what 
they are seeing, and, thus, how we can support them with our 
air power.
    The way I would evaluate in military terms that the size 
and configuration of a posture which, in my view, is primarily 
valued for political purposes would be, centrally, how does it 
affect our ability to deliver air power to keep our Afghan 
allies militarily effective in the field, to the extent that we 
can do it? That is the criterion I would use in evaluating the 
makeup of that posture.
    Ms. Houlahan. Perfect. I very much appreciate your time.
    And I yield back.
    The Chairman. Thank you very much.
    And I want to join the ranking member in thanking our 
witnesses for this discussion. Appreciate you being here. 
Appreciate you sharing your knowledge with us.
    And, with that, we are adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                           November 20, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 20, 2020

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           November 20, 2020

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. SMITH

    Dr. Biddle. This letter is in response to the question you posed in 
the Committee's November 20 hearing on Afghanistan, where you asked 
whether a U.S. force of 2,500 would be a sufficient counterterrorism 
(CT) force in that country.
    [In] the short term, a force of this size could provide useful CT 
capability. It would facilitate drone or piloted airstrikes by 
providing bases near their targets. It could enable a small special 
operations presence to carry out raids. It could provide modest in-
country intelligence capability to assist in targeting such raids and 
air strikes, and to hasten exploitation of material captured in special 
operations raids.
    But a very small presence in a hostile warzone can be an 
inefficient way to provide such capabilities. Bases must be protected, 
maintained, and resupplied. Some of this overhead can safely be 
assigned to local nationals, but not all. There are irreducible minima 
to sustain secure bases in a war zone, especially inland bases far from 
supply sources. Very small troop counts thus tend to increase the ratio 
of support and infrastructure costs (and personnel) to those of the 
combat forces and intelligence functions that provide the actual 
capability we seek.
    Perhaps more important, the long-term sustainability of such a 
posture is far from clear. Its viability depends on the Afghan 
government's ability to keep the Taliban and Islamic State at bay. But 
a U.S. drawdown to a 2,500-person CT force would undermine the 
negotiations that are our only realistic way to preserve the Afghan 
government. As I argued in my testimony, the U.S. troop presence 
constitutes much of our remaining, limited, leverage in the settlement 
talks. Unrequited unilateral drawdowns attenuate that leverage, and 
worsen the prospects for settlement. Without a settlement, the Afghan 
government will eventually lose the war. And if that happens, U.S. CT 
capability in Afghanistan will become radically less viable regardless 
of how we try to configure a tiny rump posture. A government collapse 
would create a far more hazardous security environment than today's, in 
which it would be much more difficult for a 2,500-person U.S. 
contingent to protect and resupply itself once isolated far inland 
amidst a chaotic multi-sided civil war in which few actors will find 
much reason to support an unpopular U.S. rump presence dedicated to 
killing terrorists who threaten only Americans. (I see chaotic civil 
warfare as likelier than a simple Taliban restoration if the Kabul 
government collapses, but a Taliban restoration would be even worse for 
U.S. CT prospects: a restored Taliban government would oppose such a 
presence with the resources of a state military.) I have long believed 
that it is thus a false dichotomy to separate counterterrorism and 
counterinsurgency in Afghanistan. The counterinsurgency mission of 
sustaining the government in Kabul is necessary to enable the 
counterterrorism capability it accompanies. A posture limited to CT 
risks a government collapse that would undermine the viability of the 
CT mission.
    This is why I see the most important contribution of U.S. forces 
today as their political role in facilitating negotiations to end the 
war, rather than in their military contribution to counterterrorism. 
Failure in the settlement talks risks greater damage to U.S. 
counterterrorism capability than the withdrawal or retention of a small 
U.S. CT presence. For this reason, we should be willing to offer a 
total withdrawal of all U.S. forces--including U.S. CT forces--if this 
is part of a settlement that ends the war. But we should be willing to 
keep as much of today's presence as possible, in excess of just the 
2,500 figure, for as long as there is a reasonable chance that this 
could help reach a settlement and end the fighting.   [See page 14.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           November 20, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. Ambassador Crocker, in light of the Taliban's recent 
comments which have demonstrated little to no shift from their previous 
draconian and violent position on women, what should the United States 
do to ensure that women's rights are not traded away at the negotiating 
table? What has the United States done to ensure that women and members 
of civil society are present and able to participate in the 
negotiations, for example as monitors and observers? If no steps have 
been taken, why not?
    Ambassador Crocker. Thank you for this very important question.
    There are several women and civil society representatives on the 
Afghan government delegation to the Taliban talks. That is important, 
but the critical issue is the structure and progression of the talks 
themselves. By agreeing to meet with the Taliban without the Afghan 
government present, a long standing Taliban demand, the U.S. 
effectively delegitimized the Afghan government and signaled that the 
U.S. was finished in Afghanistan. Subsequent developments have only 
reinforced that analysis. The U.S. has withdrawn forces without 
requiring the Taliban to live up to its commitments. The latest 
decision by President Trump to reduce our dangerously small force by 
2500 before he leaves office is tantamount to a declaration of 
surrender.
    In my view, Trump is putting American national security and core 
American values at risk. The Taliban seeks to retake power in 
Afghanistan by force. If they are successful, they will bring al-Qaida 
with them. They chose military defeat and exile rather than give up al-
Qaida in 2001. There is no reason to think they would abandon them now. 
This is the combination that brought us 9/11, and they have not become 
kinder and gentler over the last two decades. Similarly, there is no 
reason to expect that once the Taliban return, they will take a 
different approach toward Afghan females. In our absence, they will 
pursue the same pernicious policies they did prior to 9/11. That would 
be a betrayal of our most fundamental values. When I reopened our 
Embassy in Kabul after the defeat of the Taliban, Senator Biden was our 
first Congressional visitor. We went to see a girls school we had just 
opened. In a first grade class we saw girls ranging in age from six to 
twelve. The older girls had been deprived of education under the 
Taliban. Our message to girls and women was that as you step forward, 
we have your back. I hope President-elect Biden remembers that.
    Ms. Speier. Dr. Jones, can the extraordinary gains that Afghan 
women and girls have made since 2001 be preserved? Should we be 
trusting the Taliban with women's rights, human rights, and minorities 
rights? What assurances can we seek from the Taliban that it will 
recognize women's and human rights in the constitution and according to 
international law?
    Dr. Jones. Representative Speier, thanks for your important 
questions. As you are aware, the Taliban's ideology is deeply rooted in 
the Hanafi school of Islamic jurisprudence. While the Taliban's 
ideology has been evolving since the movement's establishment in the 
1990s, Taliban leaders today generally support the establishment of an 
extreme government by Islamic law (sharia) and the creation of an 
``Islamic Emirate'' in Afghanistan. The Taliban elevate the role of 
Islamic scholars (ulema) that issue legal rulings (fatwas) on all 
aspects of daily life. The ulema play a particularly important role in 
monitoring society's conformity with their view of Islam and in 
conservatively interpreting religious doctrine. Taliban officials claim 
they have moderated their views on some issues, such as women's rights. 
Taliban deputy leader Sirajuddin Haqqani wrote in February 2020 that 
the Taliban would ``build an Islamic system in which all Afghans have 
equal rights, where the rights of women that are granted by Islam--from 
the right to education to the right to work--are protected.'' But the 
Taliban has a well-documented record of repression, intolerance, and 
human rights abuses against women, foreigners, ethnic minorities, and 
journalists. The Taliban's persecution of women is particularly 
concerning. Women that are victims of domestic violence have little 
recourse to justice in Taliban courts, and the Taliban discourages 
women from working, denies women access to modern health care, 
prohibits women from participating in politics, and supports such 
punishments against women as stoning and public lashing.
    In short, the United States should not trust the Taliban with 
women's rights, human rights, and minority rights. Nor should the 
United States trust a Taliban government to sincerely abide by any 
promises to recognize women's and human rights. This reality leads to 
two conclusions. First, the United States and its partners (including 
in Europe) need to use diplomatic, military, intelligence, economic, 
and other instruments to prevent a Taliban overthrow of the government. 
A Taliban overthrow would undermine U.S. interests in a range of areas, 
from international terrorism to women's rights. Second, any peace deal 
between the Afghan government and the Taliban should recognize women's 
and human rights in any revised Afghan constitution, according to 
international law. This includes universal suffrage and the right to 
run for office.

                                  [all]
</pre></body></html>
